<html>
<title> - ATC MODERNIZATION AND NEXTGEN NEAR-TERM ACHIEVABLE GOALS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 
       ATC MODERNIZATION AND NEXTGEN NEAR-TERM ACHIEVABLE GOALS

=======================================================================

                                (111-14)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                                AVIATION

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               ----------                              

                             MARCH 18, 2009

                               ----------                              

                       Printed for the use of the
             Committee on Transportation and Infrastructure

        ATC MODERNIZATION AND NEXTGEN NEAR-TERM ACHIEVABLE GOALS



        ATC MODERNIZATION AND NEXTGEN NEAR-TERM ACHIEVABLE GOALS

=======================================================================

                                (111-14)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                                AVIATION

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 18, 2009

                               __________


                       Printed for the use of the
             Committee on Transportation and Infrastructure


                  U.S. GOVERNMENT PRINTING OFFICE
49-983                    WASHINGTON : 2009
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia,   JOHN L. MICA, Florida
Vice Chair                           DON YOUNG, Alaska
PETER A. DeFAZIO, Oregon             THOMAS E. PETRI, Wisconsin
JERRY F. COSTELLO, Illinois          HOWARD COBLE, North Carolina
ELEANOR HOLMES NORTON, District of   JOHN J. DUNCAN, Jr., Tennessee
Columbia                             VERNON J. EHLERS, Michigan
JERROLD NADLER, New York             FRANK A. LoBIONDO, New Jersey
CORRINE BROWN, Florida               JERRY MORAN, Kansas
BOB FILNER, California               GARY G. MILLER, California
EDDIE BERNICE JOHNSON, Texas         HENRY E. BROWN, Jr., South 
GENE TAYLOR, Mississippi             Carolina
ELIJAH E. CUMMINGS, Maryland         TIMOTHY V. JOHNSON, Illinois
ELLEN O. TAUSCHER, California        TODD RUSSELL PLATTS, Pennsylvania
LEONARD L. BOSWELL, Iowa             SAM GRAVES, Missouri
TIM HOLDEN, Pennsylvania             BILL SHUSTER, Pennsylvania
BRIAN BAIRD, Washington              JOHN BOOZMAN, Arkansas
RICK LARSEN, Washington              SHELLEY MOORE CAPITO, West 
MICHAEL E. CAPUANO, Massachusetts    Virginia
TIMOTHY H. BISHOP, New York          JIM GERLACH, Pennsylvania
MICHAEL H. MICHAUD, Maine            MARIO DIAZ-BALART, Florida
RUSS CARNAHAN, Missouri              CHARLES W. DENT, Pennsylvania
GRACE F. NAPOLITANO, California      CONNIE MACK, Florida
DANIEL LIPINSKI, Illinois            LYNN A WESTMORELAND, Georgia
MAZIE K. HIRONO, Hawaii              JEAN SCHMIDT, Ohio
JASON ALTMIRE, Pennsylvania          CANDICE S. MILLER, Michigan
TIMOTHY J. WALZ, Minnesota           MARY FALLIN, Oklahoma
HEATH SHULER, North Carolina         VERN BUCHANAN, Florida
MICHAEL A. ARCURI, New York          ROBERT E. LATTA, Ohio
HARRY E. MITCHELL, Arizona           BRETT GUTHRIE, Kentucky
CHRISTOPHER P. CARNEY, Pennsylvania  ANH ``JOSEPH'' CAO, Louisiana
JOHN J. HALL, New York               AARON SCHOCK, Illinois
STEVE KAGEN, Wisconsin               PETE OLSON, Texas
STEVE COHEN, Tennessee
LAURA A. RICHARDSON, California
ALBIO SIRES, New Jersey
DONNA F. EDWARDS, Maryland
SOLOMON P. ORTIZ, Texas
PHIL HARE, Illinois
JOHN A. BOCCIERI, Ohio
MARK H. SCHAUER, Michigan
BETSY MARKEY, Colorado
PARKER GRIFFITH, Alabama
MICHAEL E. McMAHON, New York
THOMAS S. P. PERRIELLO, Virginia
DINA TITUS, Nevada
HARRY TEAGUE, New Mexico

                                  (ii)

  


                        Subcommittee on Aviation

                 JERRY F. COSTELLO, Illinois, Chairman

RUSS CARNAHAN, Missouri              THOMAS E. PETRI, Wisconsin
PARKER GRIFFITH, Alabama             HOWARD COBLE, North Carolina
MICHAEL E. McMAHON, New York         JOHN J. DUNCAN, Jr., Tennessee
PETER A. DeFAZIO, Oregon             VERNON J. EHLERS, Michigan
ELEANOR HOLMES NORTON, District of   FRANK A. LoBIONDO, New Jersey
Columbia                             JERRY MORAN, Kansas
BOB FILNER, California               SAM GRAVES, Missouri
EDDIE BERNICE JOHNSON, Texas         JOHN BOOZMAN, Arkansas
LEONARD L. BOSWELL, Iowa             SHELLEY MOORE CAPITO, West 
TIM HOLDEN, Pennsylvania             Virginia
MICHAEL E. CAPUANO, Massachusetts    JIM GERLACH, Pennsylvania
DANIEL LIPINSKI, Illinois            CHARLES W. DENT, Pennsylvania
MAZIE K. HIRONO, Hawaii              CONNIE MACK, Florida
HARRY E. MITCHELL, Arizona           LYNN A WESTMORELAND, Georgia
JOHN J. HALL, New York               JEAN SCHMIDT, Ohio
STEVE COHEN, Tennessee               MARY FALLIN, Oklahoma
LAURA A. RICHARDSON, California      VERN BUCHANAN, Florida
JOHN A. BOCCIERI, Ohio               BRETT GUTHRIE, Kentucky
NICK J. RAHALL, II, West Virginia
CORRINE BROWN, Florida
ELIJAH E. CUMMINGS, Maryland
ELLEN O. TAUSCHER, California
JASON ALTMIRE, Pennsylvania
SOLOMON P. ORTIZ, Texas
MARK H. SCHAUER, Michigan
JAMES L. OBERSTAR, Minnesota
  (Ex Officio)

                                 (iii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................   vii

                               TESTIMONY

Blakey, Marion C., President and Chief Executive Officer, 
  Aerospace Industries Association of America....................    32
Brantley, Tom, President, Professional Aviation Safety 
  Specialists....................................................    32
Bunce, Peter J., President and CEO, General Aviation 
  Manufacturers Association......................................    32
Cox, Victoria, Senior Vice President for NextGen and Operations 
  Planning Services, Air Traffic Organization, Federal Aviation 
  Administration.................................................     8
Dillingham, Gerald, Director, Physical Infrastructure Issues, 
  U.S. Government Accountability Office..........................     8
Forrey, Patrick, President, National Air Traffic Controllers 
  Association....................................................    32
Kay, Captain Rory, Executive Air Safety Chairman and United 
  Airlines Pilot, ALPA...........................................    32
May, James C., President and CEO, Air Transport Association......    32
Scovel, III, Hon. Calvin L., Inspector General, U.S. Department 
  of Transportation..............................................     8
Sinha, Agam, Senior Vice President and General Manager, the Mitre 
  Corporation....................................................     8
Tobias, Robert M., Panel Member, NextGen Study, National Academy 
  of Public Administration, Director, Public Sector Executive 
  Education, American University.................................     8
Toner, Karlin, Director, Staff to the Secretary and Senior Policy 
  Committee for NextGen Coordination, U.S. Department of 
  Transportation.................................................     8

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Carnahan, Hon. Russ, of Missouri.................................    51
Costello, Hon. Jerry F., of Illinois.............................    52
Johnson, Hon. Eddie Bernice, of Texas............................    59
McMahon, Hon. Michael E., of New York............................    63
Mitchell, Hon. Harry E., of Arizona..............................    66
Oberstar, Hon. James L., of Minnesota............................    67
Richardson, Hon. Laura A., of California.........................    72

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Blakey, Marion C.................................................    75
Brantley, Tom....................................................    81
Bunce, Peter J...................................................    90
Cox, Victoria....................................................   106
Dillingham, Gerald...............................................   167
Forrey, Patrick..................................................   208
Kay, Captain Rory................................................   217
May, James C.....................................................   233
Scovel, III, Hon. Calvin L.......................................   241
Sinha, Dr. Agam..................................................   263
Tobias, Robert M.................................................   293
Toner, Karlin....................................................   310

                       SUBMISSIONS FOR THE RECORD

Cox, Victoria, Senior Vice President for NextGen and Operations 
  Planning Services, Air Traffic Organization, Federal Aviation 
  Administration:

  Responses to questions from Rep. Costello......................   130
  Responses to questions from Rep. McMahon.......................   156
  Responses to questions from Rep. Petri.........................   160
Dillingham, Gerald, Director, Physical Infrastructure Issues, 
  U.S. Government Accountability Office, responses to questions 
  from Rep. Costello and Rep. Petri..............................   192
Scovel, III, Hon. Calvin L., Inspector General, U.S. Department 
  of Transportation, responses to questions from Rep. Petri......   259
Sinha, Agam, Senior Vice President and General Manager, the Mitre 
  Corporation, responses to questions from the Subcommittee......   282
Tobias, Robert M., Panel Member, NextGen Study, National Academy 
  of Public Administration, Director, Public Sector Executive 
  Education, American University, responses to questions from 
  Rep. Petri.....................................................   304

[GRAPHIC] [TIFF OMITTED] T9983.264

[GRAPHIC] [TIFF OMITTED] T9983.265

[GRAPHIC] [TIFF OMITTED] T9983.266

[GRAPHIC] [TIFF OMITTED] T9983.267

[GRAPHIC] [TIFF OMITTED] T9983.268

[GRAPHIC] [TIFF OMITTED] T9983.269

[GRAPHIC] [TIFF OMITTED] T9983.270

[GRAPHIC] [TIFF OMITTED] T9983.271

[GRAPHIC] [TIFF OMITTED] T9983.272

[GRAPHIC] [TIFF OMITTED] T9983.273

[GRAPHIC] [TIFF OMITTED] T9983.274

[GRAPHIC] [TIFF OMITTED] T9983.275

[GRAPHIC] [TIFF OMITTED] T9983.276

[GRAPHIC] [TIFF OMITTED] T9983.277



     AIR TRAFFIC CONTROL MODERNIZATION AND THE NEXT GENERATION AIR 
           TRANSPORTATION SYSTEM: NEAR-TERM ACHIEVABLE GOALS

                              ----------                              


                       Wednesday, March 18, 2009

                  House of Representatives,
    Committee on Transportation and Infrastructure,
                                  Subcommittee on Aviation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 10:03 a.m., in 
Room 2167, Rayburn House Office Building, Hon. Jerry F. 
Costello [Chairman of the Subcommittee] presiding.
    Mr. Costello. The Subcommittee will come to order. The 
Chair will ask all Members, staff, and everyone to turn 
electronic devices off or on vibrate.
    The Subcommittee is meeting today to hear testimony on the 
"ATC Modernization: Near-Term Achievable Goals."
    Before I give my summary of my opening statement--I have an 
opening statement that I will submit for the record. I will 
summarize it, and then I will call on the Ranking Member for 
any statement that he would like to make or any comments. And 
then we will go to the first panel of witnesses.
    I welcome everyone to the Subcommittee hearing today on 
"Air Traffic Control Modernization and Next-Generation Air 
Transportation Systems: Near-Term Achievable Goals," which is 
being conducted as one of several hearings that meet the 
oversight requirement of the rules of the House. This is the 
first of several hearings that the Aviation Subcommittee will 
hold this year on NextGen, covering a wide range of topics.
    Everyone agrees that our ATC system must be modernized. The 
total number of passengers carried in the United States 
airspace was approximately 700 million a year and is expected 
to go to 1 billion in the next 7 to 12 years. For that and 
other reasons, it is very important that we, not only the House 
but also the other body, quickly pass the FAA reauthorization 
bill.
    H.R. 915, the FAA Reauthorization Act of 2009, authorizes 
$13.4 billion for the FAA's facility and equipment account, the 
primary vehicle for modernizing the national airspace system. 
These historic funding levels will accelerate the 
implementation of NextGen, enable the FAA to replace and repair 
existing facilities and equipment, and provide for the 
implementation of high-priority safety-related systems.
    Two years ago at a hearing on airline delays and consumer 
issues, I asked and called upon government and the government 
agencies and industry to begin a frank discussion about what 
near-term relief can realistically be provided with new 
technology. Many in the industry have since expressed similar 
sentiments, given that we are making key investments over the 
next few years, and stakeholders and everyone else want to know 
more about details about the near-term capabilities, benefits, 
and requirements of this new system.
    In response, the FAA updated its NextGen implementation 
plan and published a NextGen mid-term architecture. In 
addition, the FAA has commissioned the RTCA to form a Mid-Term 
Implementation Task Force that will work with industry to 
prioritize which NextGen capabilities should be deployed first 
and where they should be deployed to achieve the greatest 
benefits.
    Regarding industry investments, it has been estimated that 
the total NextGen-related avionics costs for aircraft operators 
may be between $14 billion and $20 billion. Near-term NextGen 
benefits will depend largely on how quickly operators are 
willing to equip. Industry stakeholders want to know from 
government if they will partially subsidize early NextGen 
equipage. And the FAA has proposed that operational incentives, 
such as preferred routes or runway access, be given to 
operators that equip as soon as possible. I believe that all of 
those options should be on the table.
    In addition, concerns have been expressed as to whether the 
FAA can manage a project of this magnitude to ensure NextGen's 
success. In September of 2008, the National Academy of Public 
Administration released a report detailing key workforce 
competencies that the FAA needs to strengthen. In response, the 
FAA plans to hire between 300 and 400 new NextGen personnel.
    I am interested in hearing from our witnesses today on that 
point.
    Leadership and overall organizational structure of NextGen 
efforts is important for the successful implementation. To 
increase the authority and visibility of the FAA's Joint 
Planning and Development Office, H.R. 915 elevates the director 
of JPDO to the status of associate administrator for NextGen 
within the FAA, reporting directly to the administrator, which 
is completely the opposite of what the FAA did in their 
reorganization in May of 2008. And we, of course, believe that, 
in order to elevate the stature and to implement NextGen, that 
that position ought to be reporting directly to the 
administrator.
    Further, in November of 2008, President Bush signed 
Executive Order 13479, which outlines the function of the 
Secretary of Transportation, the Senior Policy Committee, and 
the NextGen effort. I am pleased to see this affirmed the 
NextGen policies, as outlined in Vision 100. In addition, I 
firmly believe there needs to be greater White House 
involvement in order to pull all of the agencies and 
stakeholders together if we are going to be successful in 
implementing NextGen and getting the project done.
    In the past, I have stated that the FAA cannot let over 
reliance on its contractors compromise its objectivity with 
regard to a contractor's performance or the protection of 
consumers. To ensure the safety of the ATC systems, the FAA 
maintains a comprehensive certification program for systems 
used in the NAS.
    I am concerned about a recent change that the FAA has made 
in the certification program, requiring that only FAA-owned 
systems need certification. Given that major NextGen 
acquisitions, such as ADS-B, will not be owned or operated by 
the FAA, I am particularly concerned that this policy change 
could potentially weaken the government's oversight of these 
key systems. Therefore, Chairman Oberstar and I have asked the 
Department of Transportation Inspector General to review the 
changes that the FAA has made to its certification program.
    With that, I again welcome all of our witnesses here today. 
I look forward to your testimony.
    And before I recognize Mr. Petri, the Ranking Member, for 
his opening statement or remarks, I ask unanimous consent to 
allow 2 weeks for all Members to revise and extend their 
remarks and to permit the submission of additional statements 
and materials by Members and witnesses.
    Without objection, so ordered.
    And the Chair now recognizes the Ranking Member, Mr. Petri, 
for his opening statement or comments.
    Mr. Petri. Thank you very much, Mr. Chairman.
    I just want to begin by commending you for not only having 
today's hearing but for the previous hearings on this subject 
and a number of oversight and informational meetings that you 
have had on the whole NextGen process. I think Congress is 
often criticized for running around expressing alarm after 
things run amok, and this is an example where, hopefully, 
things will go right because attention is being paid not only 
on the legislative side but, even more importantly, within the 
administration and the community, so that problems can be 
worked out and planned and informed judgments can be made.
    It is very important to get NextGen right. Other industries 
have switched from analog and other systems to digital-type 
systems, with all the changes and advantages that that implies. 
And there is certainly no reason why the aviation industry, at 
least the government section of that, can't do it. The defense 
part of it I think has pretty well already done it, and we need 
to do it to keep competitive and to accommodate growth in our 
national aviation industry.
    So today's hearings should allow us to get an update on the 
progress of NextGen and the benefits that can be obtained from 
it near-term. Modernization of our air traffic control system 
has to be a priority, and I know it is of this Committee. 
Forecasts for future passenger and operational growth can't be 
ignored. While passenger traffic has decreased for obvious 
reasons recently, it is expected to rebound and grow over the 
next several decades.
    Transforming the almost continuously operating air traffic 
control system into the NextGen concept is a big test of the 
FAA's abilities. Maintaining the existing system, training four 
generations of air traffic controllers, transitioning to a new 
satellite-based system, and securing its operation are just a 
few of the challenges facing the agency.
    As we look to the future, we must focus on how decisions 
that will shape tomorrow are made. Both commercial and general 
aviation users could benefit from the capacity and safety 
improvements that NextGen is reported to offer.
    Though I do have some concerns with some provisions in the 
proposed reauthorization bill, H.R. 915, the bill does include 
key NextGen improvements that we worked on in a bipartisan 
manner at the beginning of the last Congress. These include 
provisions to reorganize the governance structure, create more 
robust FAA reporting requirements to Congress. By elevating the 
authority of the Joint Planning and Development Office director 
to the associate administrator level and increasing reporting 
requirements, the NextGen provisions of the bill seek to 
enhance accountability.
    In addition to the long-term planning needs for NextGen, 
the FAA must be sure to do everything it can to meet today's 
demands. It is my understanding that there are several 
improvements that, if implemented, could yield benefits in the 
near term. And I am interested in hearing from our witnesses 
about procedural changes, airspace redesign efforts, and the 
status of NextGen transformational programs that will help to 
make our system more efficient in the near term. Also 
interested in hearing how those improvements prepare the agency 
to deliver the long-term NextGen architecture.
    Equally important to airspace modernization are efforts to 
expand ground capacity at our Nation's airports. Without more 
ground capacity, either through new construction or with more 
efficient surface management tools, airports' outdated ground 
infrastructure will become a bottleneck. I am interested in 
hearing how the FAA is planning to address potential gridlock 
at our Nation's airports.
    Finally, as we transition to more technology-based air 
traffic control procedures, it will be important that training 
keeps pace, both for FAA employees and for the user community. 
So I am interested in learning what steps the FAA is taking to 
be sure that the aviation workforce is prepared to make the 
transition to new technology. And I also look forward to 
hearing FAA's plans to allow increased stakeholder 
participation in technology development and implementation 
planning.
    So I, again, thank the Chairman for calling this hearing, 
and I look forward to the testimony of the witnesses before us.
    Mr. Costello. The Chair thanks the Ranking Member for his 
statement and now recognizes the distinguished Chairman of the 
Full Committee, Chairman Oberstar.
    Mr. Oberstar. Thank you, Mr. Chairman. Thank you, Mr. 
Petri, for your comments; staff, for preparing this hearing.
    This is a very important hearing. It is a benchmark, 
threshold hearing on the status of the modernization--the 
continuing modernization of the air traffic control system. 
People talk about modernization as though it is a snapshot. 
Take a picture of it, here we are today, and then it is done. 
It is an ongoing work of trying to stay ahead of the technology 
and of the dynamic forces of aviation in the domestic and 
international market.
    It has been a long-pursued objective of this Subcommittee, 
over three decades, to stay on top of the continuing 
modernization and oversee the nearly 70,000 items of technology 
that FAA has put in place, beginning in about 1980, when the 
serious modernization of air traffic control technology began.
    And we can look back over time and see the same ups and 
downs of the waves of concern, periods of severe congestion, 
delays, half of which are weather, but weather compounded by 
inadequacy, the capacity of the air traffic control technology 
in place at the time, and then moving up and then slipping 
down; and also the ups and downs of financing and investment in 
the air traffic control system. We need solid baselines of 
support that build from one year to the next if we are going to 
stay ahead of technology.
    Mr. Costello, Chairman, last year--actually, 2 years ago--
and he cited it in his opening remarks--said we need to begin a 
frank discussion about near-term relief and what can 
realistically be delivered by NextGen. And each time that the 
FAA comes up with a new technology approach, with greater 
capacity, there are great hopes, great expectations, and then 
it seems to dribble out and take forever to implement.
    FAA is doing a better job. They are shifting attention to 
the near term, refining the NextGen benchmarks over the next 5 
to 8 years. I think it is a mark of progress that the FAA 
commissioned the NextGen Mid-Term Implementation Task Force to 
develop a plan in cooperation with industry. But I hope they 
are also involving the air traffic controllers in this same 
initiative.
    And, Mr. Scovel, you need to watch over that very carefully 
to make sure they don't repeat the mistakes of the past, of 
omission, of failing to engage in the design, engineer, and 
planning of technology by leaving out those who have to operate 
it, the controllers. And that is without regard to whatever 
administration is in office at the White House. This is a 
failing that goes back a very long time. It is a cultural gap.
    Now, how quickly NextGen benefits come about will depend 
not only on the progress FAA makes, the providers of the 
technology in the private sector, but also the airline 
companies themselves, their willingness to equip aircraft in 
advance of regulatory mandates.
    I remember a hearing we had in this Committee room when the 
CEO of Continental Airlines had a stack of pieces of equipment 
15 feet high and said, "This is what we are going to take out 
of our aircraft and replace with a box this size," as we were 
working to harmonize progress at FAA and progress with the 
carriers. Now, they have to continue to see their own benefit 
in making the investments, coordinated with the FAA. If the 
estimates are on target--and they usually aren't--that the 
airlines could be facing investments of $14 billion to $20 
billion--I think those are probably on the very high side and 
are based on estimates of certain numbers of aircraft--but that 
information needs to be made much more precise, much more 
carefully thought through than just a horseback, off-the-top-
of-the-back information.
    Earlier this year, there was a big push to try to get money 
in the Recovery Act, the stimulus plan, to put some $4 billion. 
Mr. Costello and I were supporting that initiative. But, in the 
end, what prevented that from happening is a lack of 
appreciation, or lack of confidence, I should say, on the part 
of the administration, the Appropriations Committees, that the 
industry, that the FAA were ready to use that money 
effectively.
    There is a precedent for us doing that. And I don't need to 
go on; I will put this in the record. I will just say that 
there is a precedent. There is a plausible case to be made that 
properly structured subsidies and incentives of the kind that 
we are talking about could advance NextGen.
    But the case had to be made long before we proposed the 
investment. And the case wasn't made. We just kept running up 
against a blank wall. People didn't understand it, didn't know 
it, didn't believe, didn't have confidence that industry on the 
one side could cooperate and do their part and that FAA on its 
side would be able to make the investments properly and that 
the suppliers of technology would be able to develop.
    We saw how critically important both technology policy and 
procedure are in the U.S. Airways incident early this year, 
January, when the controller in the tower, the crew in the 
flight deck, the airline dispatchers all had the right skills, 
the right training, the right preparation at that moment--spent 
30 years of training and preparation and experience for 30 
seconds of right judgment. And that is essential to this 
modernization of NextGen.
    Let's not get caught in the trap of thinking that all we 
need is to put this technology in place and everything will be 
fine, because it is people that make the technology work. If 
you don't have the right people, that stuff isn't going to 
happen.
    What troubles me, also, in the rush to NextGen is the 
deterioration of the air traffic control workforce as they 
retire. With fewer fully certified, fewer FPL controllers in 
place and more demand for on-the-job training, we are seeing 
something that I thought was a problem in the past and 
troubling now, and that is putting developmentals in some of 
the toughest air traffic control facilities in the country.
    There was a period of time when we were being fed a line by 
the FAA, oh, we can--this was in the aftermath, Mr. Chairman, 
of the firing of the controllers in 1981--"Oh, there is a whole 
new generation, Nintendo, young people who will learn this 
stuff, and they will be able to perform instantly." Well, they 
didn't. You can't make a 5-year FPL in 18 months no more than 
you can raise a 2-year-old heifer in less than 24 months. And 
we saw that, putting risky people in high-tension positions.
    The FAA must also evaluate the skill mix within its 
acquisition workforce--I remember early on when David Hinson 
came into the FAA, looked over the acquisition, found that we 
were years behind and heading towards billions of dollars in 
overruns, and brought in experts from the Navy to evaluate 
FAA's procurement practices. And the report came back to our 
Committee, which I chaired at the time, that they have never 
handled multi-billion-dollar contracts before. They don't have 
people in place that know how to manage. And recommended 
sweeping changes, which, to his credit, then-Administrator 
Hinson undertook. Well, we are at the same place today. Do we 
have people in place that really know how to manage these huge 
contracts that are going to stretch out over years?
    I was pleased that the--or encouraged, let me put it that 
way--that the FAA got the National Academy of Public 
Administration to review, and that they issued a report citing 
competencies in the FAA workforce, software development, 
contract administration improvements. But, my goodness, there 
is a huge, huge task ahead. They need over 300 to 400 new 
personnel in the agency to manage a contract of this size.
    And then I also want to cite a cautionary note about the 
relationship that we saw, the customer service initiative that 
was destructive--destructive--in the oversight of maintenance. 
Led to worldwide loss of confidence in the FAA as the gold 
standard of aviation safety, which I heard firsthand from 
transport ministers of the E.U. A year ago in May. And now we 
are seeing that slip over into this contracting arena, this 
consortium led by ITT to build the ADS-B ground stations and 
own and operate the equipment.
    And I just recall back to the many hearings I had over the 
years. We started with the 9020 IBM computer systems that were 
running the air traffic control system. And, at that time, you 
couldn't tell where IBM left off and FAA began or where FAA 
left off and IBM began. There was no critical thinking on the 
part of the FAA program managers over IBM's product and their 
recommendations for the future; and, when problems occurred, no 
critical thinking about IBM's recommendations, because FAA was 
so bound up with and tied in with them they couldn't separate 
themselves. Don't let that happen again.
    The excessive reliance on contractors has, in the past, led 
to FAA's loss of objectivity, undermines its ability to 
evaluate critically how the system is performing and how it 
will perform in the future.
    So this hearing is foundational for the future of the 
continuing modernization of the air traffic control system.
    And, General Scovel, I just want to cite last year your 
testimony before the Committee: Quote, "FAA could find itself 
in a situation where it knows very little about the system that 
is expected to be the cornerstone of NextGen." That is not a 
prediction. That is a restatement of recent history.
    Thank you, Mr. Chairman, for this foundational hearing.
    Mr. Costello. The Chair thanks you and now recognizes the 
gentleman from North Carolina.
    And I want to wish you a happy birthday, as well.
    It is the gentleman from North Carolina's birthday today.
    Mr. Coble. I try to forget those, Mr. Chairman, but thank 
you for that.
    Mr. Chairman, I will be very brief. I just wanted to report 
to you and Mr. Petri that I did, in fact, present my e-ticket 
to the NextGen flight, which took off from Rayburn foyer 
earlier this week. And, as you know, the FAA sponsored it, and 
I found it to be a very interesting and informative 
presentation and flight. I just wanted to share that with you.
    Thank you.
    Mr. Costello. The Chair thanks the gentleman.
    And now we would recognize the gentlelady from Texas, 
Chairwoman Johnson.
    Ms. Johnson. Thank you very much, Mr. Chairman.
    And happy birthday, Mr. Coble.
    As the Chairman of the Full Committee stated, this is a 
very important hearing. And I have received correspondence from 
Southwest Airlines that I would like to ask unanimous consent 
to include in the record.
    Mr. Costello. Without objection.
    Ms. Johnson. They completed an RNP, Required Navigation 
Performance, procedures round-trip between Dallas Love Field, 
which is in my district, and Houston Hobby, achieving a major 
milestone in the airline's quest to revolutionize the skies and 
become the first airline to fly the required navigation 
performance procedures in every airport that it serves. And 
they estimated that carbon reduction of 904 pounds of CO2 per 
round-trip flight between Dallas and Love Field; estimated 
carbon reduction in 1 year of flying the RNP procedures between 
Dallas Love and Houston Hobby could equal a reduction of 8.42 
million pounds of CO2. This is equivalent to removing 699 
passenger cars from the road in 1 year.
    And it goes on, but I would like to have it as a part of 
the record.
    And thank you very much for this time, and I yield back.
    Mr. Costello. The Chair thanks the gentlelady and now will 
introduce the first panel of witnesses.
    First, Ms. Victoria Cox, a senior vice president for 
NextGen and operations planning services, Air Traffic 
Organization at the FAA; Dr. Karlin Toner, director, staff to 
the Secretary and Senior Policy Committee for NextGen at the 
U.S. Department of Transportation; Dr. Gerald Dillingham, 
director of physical infrastructure issues with the U.S. 
Government Accountability Office; the Honorable Calvin Scovel 
III, who is the Inspector General with the U.S. Department of 
Transportation; and Dr. Agam Sinha, who is the senior vice 
president and general manager at The MITRE Corporation.
    Ladies and gentlemen, your entire statements will appear in 
the record, and we would ask you to summarize your testimony.
    And the Chair now recognizes Ms. Cox.

 STATEMENTS OF VICTORIA COX, SENIOR VICE PRESIDENT FOR NEXTGEN 
  AND OPERATIONS PLANNING SERVICES, AIR TRAFFIC ORGANIZATION, 
FEDERAL AVIATION ADMINISTRATION; KARLIN TONER, DIRECTOR, STAFF 
   TO THE SECRETARY AND SENIOR POLICY COMMITTEE FOR NEXTGEN 
    COORDINATION, U.S. DEPARTMENT OF TRANSPORTATION; GERALD 
  DILLINGHAM, DIRECTOR, PHYSICAL INFRASTRUCTURE ISSUES, U.S. 
 GOVERNMENT ACCOUNTABILITY OFFICE; HON. CALVIN L. SCOVEL III, 
  INSPECTOR GENERAL, U.S. DEPARTMENT OF TRANSPORTATION; AGAM 
  SINHA, SENIOR VICE PRESIDENT AND GENERAL MANAGER, THE MITRE 
  CORPORATION; ROBERT M. TOBIAS, PANEL MEMBER, NEXTGEN STUDY, 
  NATIONAL ACADEMY OF PUBLIC ADMINISTRATION, DIRECTOR, PUBLIC 
        SECTOR EXECUTIVE EDUCATION, AMERICAN UNIVERSITY

    Ms. Cox. Thank you. Committee Chairman Oberstar, Chairman 
Costello, Ranking Member Petri, and Members of the 
Subcommittee, thank you for inviting me here today to discuss 
the current state of FAA's efforts for air traffic 
modernization and the near-term goals of the Next-Generation 
Air Transportation System.
    As you know, NextGen is a combination of technologies and 
procedures that will reduce delays, expand capacity, and reduce 
the environmental impacts of aviation, all while increasing the 
overall safety of the system and maintaining the economic 
viability of this important sector. In order to maintain the 
preeminence of the U.S. aviation system, we need NextGen, to 
bring to air transportation the same 21st-century processes 
that give other industries reliability, flexibility, and 
predictability.
    We were listening last year when you indicated that you 
would be watching our progress closely. And we believe that we 
have a lot of progress to report, because we are delivering 
NextGen now. The JPDO has made significant advances in 
fostering collaborative efforts with its partner agencies, and 
I am going to mention just a few of them here.
    DOD established a division at JPDO to work on efficient and 
secure information-sharing. The Departments of Commerce, 
Defense, FAA, and NASA have collaborated to deliver the first 
NextGen weather capability in 2013. JPDO has conceived and 
facilitated the formation of research transition teams to 
further the effective transition of research from NASA to 
implementation in the FAA. Working with partner agencies and 
other stakeholders, the FAA has established an integrated 
demonstration capability in Florida. We are working with a wide 
range of government, university, and industry partners who are 
evaluating NextGen technologies.
    In November 2008, three major new runways opened in 
Washington Dulles, Chicago O'Hare, and Seattle Tacoma, and you 
have probably been on some of them. More new runways are 
planned within the next 5 years at Chicago and Charlotte.
    While runways offer significant capacity increases, new 
runways aren't always possible at congested airports like New 
York. New technology and procedures can help us gain additional 
use from existing airport configurations, such as those with 
closely spaced parallel runways.
    In November 2008, as a result of NextGen research on wake 
turbulence, we published a national order that allows us to 
safely reduce separation between aircraft approaching parallel 
runways at Boston, Cleveland, Philadelphia, St. Louis, and 
Seattle. In Seattle alone, this resulted in capacity increases 
of more than 70 percent in low-visibility conditions.
    Advances in performance-based navigation procedures and 
routes allow for optimal use of airspace for equipped users. 
Because the realization of NextGen benefits is integrally 
linked to equipage rates, it is imperative that the FAA work 
closely with industry on NextGen deployment.
    Operators like Southwest Airlines recognize the value of 
performance-based navigation. This airline made the business 
decision early last year to equip its entire fleet for Area 
Navigation and Required Navigation Performance procedures. 
Southwest believes that its $175 million investment can be 
recouped within the next 5 years because of the operational 
efficiencies offered.
    Among our five long-lead-time programs--the programs that 
will truly transform the NAS--Automatic Dependence 
Surveillance-Broadcast, ADS-B, is the most advanced. ADS-B has 
already been deployed in southern Florida. By the end of this 
year, ADS-B will provide, for the first time, surveillance in 
the Gulf of Mexico, where there has never been radar coverage. 
The FAA achieved a major developmental milestone with ADS-B in 
December that puts it on a path for full national deployment, 
which we expect to be completed in 2013.
    Last year, the NextGen Network Enabled Weather Program 
began conducting demonstrations of the integration of weather 
information into decision support tools that are used for air 
traffic control automation. This is a key step in reducing the 
impact of weather.
    To guide us in the transition from near to mid-term, we 
have made significant progress in the implementation and use 
across the FAA of the National Airspace System Enterprise 
Architecture. Published in January of this year, the NAS 
Enterprise Architecture lays out important, detailed 
information about the mid-term. The FAA NextGen Implementation 
Plan, also published in January, has a mid-term focus, as well.
    The FAA is working hard to transition to NextGen 
responsibly and safely. And let me reiterate, we are delivering 
NextGen now.
    Chairman Costello, Congressman Petri, Members of the 
Committee, thank you. This concludes my remarks, and I would be 
happy to answer any questions.
    Mr. Costello. The Chair thanks you and now recognizes Dr. 
Toner.
    Ms. Toner. Good morning, Chairman Costello, Ranking Member 
Petri, and Members of the Subcommittee. I want to thank you for 
the opportunity to come here today and discuss with you the 
role of the Senior Policy Committee, or the SPC, who will set 
the strategic direction for NextGen.
    I was pleased to hear in the Chairman's opening remarks his 
comment concerning needing executive branch support for 
NextGen. I hope to do my job well and enable our department and 
agency heads.
    As a brief introduction to me, I am an FAA executive 
assigned to the Department of Transportation to advise on 
NextGen. I have more than 15 years of experience leading 
research programs at NASA that involved government, industry, 
and academia. I have published on topics ranging from aircraft 
aerodynamics to the performance of air traffic management 
systems.
    So let's talk about our strategic leadership. NextGen is 
going to require us to rethink the national air transportation 
system. Our system is going to be more capable. It is going to 
be more environmentally responsive and more effective at 
achieving our security and defense needs. Operations will be 
harmonized globally, and delays due to weather will be reduced, 
and more.
    So, to do this, we must consider the capabilities of 
aircraft, of airports, and of operations. We need to look at 
the system as a whole, integrating safety right from the very 
earliest conceptual design. So, to achieve national needs for 
NextGen, we must align the air transportation-related vision 
and activities among several Federal agencies. That is the 
reason for Vision 100 and the establishment of the SPC and the 
JPDO.
    Five SPC partners are chartered with leading this 
transformation. The members of the SPC are heads of the partner 
agencies, and they advise the Secretary on national goals and 
objectives in order to meet the U.S. aviation needs. The 
members provide policy guidance for the integrated work plan 
that is created by the JPDO, and they make recommendations for 
funding for the planning, research and development that is 
carried out within their own agencies.
    The Secretary and the SPC are accountable for NextGen, a 
national effort that has a broad scope of policy, economic, and 
technological complexity. They have to have the tools to do 
this difficult interagency leadership job. So there are two new 
additions to their toolbox to enable their effective 
participation: a direct SPC support staff and an advisory 
committee. As staff director, I will tell you that I will lead 
the action to ensure that these two new tools are ready and up 
to the task.
    Let's start with the support staff. I am the liaison 
between the Secretary and the SPC partnering agencies, and I am 
working with the partners to fill staff positions, ensuring 
that the duties for each position are absolutely required at 
the Department level. The staff will lead the resolution of the 
highest-level interagency policy issues related to NextGen 
transformation. They will provide oversight of the crosscutting 
budgets and the performance measures. And they will monitor 
progress toward the deployment of interagency NextGen 
demonstrations, the focus fully on interagency actions. And I 
also want to point out to you that the support staff will work 
with the SPC to deliver a report that measures the collective 
progress towards NextGen.
    Work has already started to establish an advisory committee 
that has a broad spectrum of non-Federal Aviation 
representatives, including those from general and commercial 
aviation and labor. Through public discussions, this committee 
will identify areas where the community can forge consensus to 
inform SPC decisions, enabling the SPC to set a path forward. 
The committee will focus on policy, planning, and performance 
measures.
    Establishing and maintaining a national air transportation 
system that meets our civil aviation, security, economic, 
environmental, and national defense needs is not easy. To get 
there, we have to do a superior job addressing the national 
policies, executing interagency plans, and gauging progress 
against performance measures. The SPC must lead us there.
    Thank you.
    Mr. Costello. The Chair thanks you and now recognizes Dr. 
Dillingham.
    Mr. Dillingham. Thank you, Mr. Chairman, Mr. Petri, Members 
of the Subcommittee.
    Since FAA first announced the air traffic control 
modernization program in 1981, the Nation has spent a little 
over $50 billion on ATC improvements. However, today's ATC 
system cannot meet tomorrow's forecasted demands and is 
straining to meet current demands.
    Seven years ago, the Commission on the Future of the 
Aerospace Industry recommended the establishment of a joint 
program office to plan for meeting the Nation's air 
transportation needs in the 21st century. FAA has developed a 
vision for NextGen, which it plans to fully implement by 2025, 
and has completed much of the planning for it.
    Support for the vision is widespread, but some in the 
aviation community maintain that the plans are not sufficiently 
detailed, especially for airlines, manufacturers, and other 
systems users. Stakeholders have also expressed concerns about 
the governance and management plan for implementing NextGen. 
Some major stakeholders are still saying that they are not sure 
what is and what is not included in NextGen.
    During the last year or 2, we identified a shift in 
stakeholder emphasis. Instead of focusing on 2025 and a full 
and complete systems transformation, stakeholders are asking 
for specifics about what can be done immediately to address 
current system delays and congestion. In 2008, almost one in 
four flights arrived late or was cancelled. The average flight 
delay increased despite a 6 percent decline in the total number 
of operations.
    We have previously reported to this Committee on 
stakeholders' interests in what some refer to as NowGen. NowGen 
focuses on obtaining the maximum benefits available from 
existing and proven capabilities and existing NAS 
infrastructure as a bridge to NextGen.
    FAA is to be commended for its recent actions to address 
today's problems, including the issuance of the January 2009 
NextGen implementation plan that focuses on improving the 
efficiency and capacity of the NAS between now and 2018. 
Another recent action is FAA's establishment of the RTCA Task 
Force, which is charged with identifying the capabilities that 
can be implemented in the next few years and prioritizing them 
according to their relative merits and net benefits.
    To obtain the full benefits of the new capabilities, the 
private sector will have to invest in them, as well as the 
government. But for the private-sector stakeholders, especially 
airlines, to invest, they will need to be convinced that their 
investment will produce relatively quick returns in the form of 
enhanced operational capabilities, fuel savings, or 
environmental benefits. Given the financial health of the 
industry and the economy, FAA may have to create some 
incentives for airlines to make early investments in new 
technologies and capabilities.
    FAA also faces other key challenges in the mid-term and 
longer term. These challenges include: first, developing 
standards and procedures and regulations that will further 
enable the use of existing capabilities; second, maintaining 
and repairing existing facilities so they can continue to be 
used safely and reliably as part of the current system and, in 
some cases, integrated into NextGen; and third, addressing 
FAA's human capital resource needs so that adequate numbers of 
staff with the right skill mix are available to implement the 
transition; and finally, supporting research and development, 
especially with regard to weather, human factors, and 
environmental issues.
    Work on longer-term challenges, such as infrastructure 
development, will also need to begin as soon as possible to 
ensure that solutions are available when needed. For example, 
FAA has already identified 14 major airports that will need 
additional runways by 2025 to meet the forecasted demands. 
According to one expert, technology solutions may increase 
capacity by 5 to 10 percent, but runways can increase capacity 
by 25 to 100 percent.
    Mr. Chairman, without the necessary follow through on 
transitioning and transforming the national airspace system, 
the prediction of system gridlock could come true, adversely 
affecting the traveling public, the national economy, and the 
U.S.'s global competitive position.
    Thank you.
    Mr. Costello. The Chair thanks you and now recognizes Mr. 
Scovel.
    Mr. Scovel. Thank you, Chairman Costello. Good morning 
Ranking Member Petri, Members of the Subcommittee. We 
appreciate the opportunity to discuss FAA's efforts to develop 
NextGen and what can be achieved in the near and mid term.
    NextGen is a high-risk effort, involving billion-dollar 
investments from both the Government_in new ground systems_and 
airspace users_in new avionics. The challenges with NextGen are 
multidimensional. They involve research and development, 
complex software development and integration, workforce 
changes, and policy questions about how to spur aircraft 
equipage.
    FAA is presented with an opportunity to strategically 
position itself for when air travel rebounds. Our work shows 
that FAA must now set expectations, establish priorities and 
realistic funding estimates, and develop executable transition 
plans. After more than 4 years of planning, FAA must take a 
number of actions to advance NextGen.
    I will make four points today.
    First, while FAA is developing NextGen, it must also 
sustain the existing system. This will be important, since 
about 30 existing projects form the platforms for NextGen 
initiatives.
    We found that FAA must make numerous critical decisions 
over the next several years that will have significant 
budgetary implications and materially affect the pace of 
NextGen. For example, FAA must decide what is needed for 
terminal modernization--that is, displays and automation 
systems that controllers rely on to manage traffic in the 
vicinity of airports. Costs have not been formally baselined, 
but the price tag is projected to be $600 million.
    Second, it is important for FAA to maintain focus on near-
term efforts that can enhance the flow of air traffic. These 
include new airport infrastructure projects, airspace redesign 
projects, and performance-based navigation initiatives, 
commonly referred to as RNAV/RNP.
    As we noted in our September 2008 report, these new routes 
and procedures have significant potential to enhance capacity, 
reduce fuel burn, boost controller productivity, and reduce 
noise. These routes will take advantage of avionics already 
installed on aircraft, and they represent an important bridge 
from today's system to NextGen. However, to reach their full 
potential, these routes need to be fully integrated with 
airspace redesign initiatives. This is important as future 
routes shift away from localized operations to networking city 
pairs such as Washington and Chicago.
    Third, FAA must complete the gap analysis of the current 
system and vastly different NextGen system and refine its 
interim architecture. FAA is focusing considerable attention on 
NextGen's mid-term goals, now targeted for 2018. However, FAA 
has not reached consensus with stakeholders on how best to move 
forward, and fundamental issues need to be addressed. For 
example, FAA has begun the gap analysis but will not complete 
it until this summer. Completing this action to identify all 
mission and performance gaps is essential to a successful 
transition.
    Further, while FAA has made progress with developing the 
interim NextGen architecture, it has not yet developed firm 
requirements. Such requirements are needed to produce reliable 
cost and schedule estimates and to successfully meet mid-term 
objectives.
    We are encouraged that FAA is working with RTCA, a joint 
FAA/industry forum, to reach consensus on top priorities, 
implementation plans, and actions needed to realize benefits. 
The RTCA Task Force is scheduled to complete its work this 
summer.
    Fourth, FAA must make a number of business and management 
actions to move NextGen planning to mid-term implementation. 
These include: establish priorities and agency commitments with 
stakeholders and reflect them in planning and budgetary 
documents. This is a necessary road map for stakeholders to 
make sound investment decisions. FAA should provide this 
Committee with its investment decisions and identify the proper 
sequencing of efforts.
    Next, manage NextGen initiatives as integrated portfolios 
and establish clear lines of responsibility, authority, and 
accountability. Accordingly, FAA will need to adjust its 
acquisition management system so that it can effectively manage 
NextGen investments.
    Next, acquire the necessary skill mix to manage and execute 
NextGen. A recent study pointed out that FAA lacks the 
workforce needed to execute a large-scale system integration, a 
workforce that is crucial to the successful implementation of 
NextGen.
    Finally, examine what can reasonably be implemented by the 
Agency and key stakeholders in given time increments. For 
example, FAA will need to balance training large numbers of 
developmental controllers to sustain the existing system while 
introducing the new training needed for NextGen capabilities.
    In summary, FAA faces many critical decisions in the next 
year. A clear picture of FAA's priorities and an executable 
path for NextGen should emerge this summer when the task force 
completes its work. A considerable level of oversight will be 
required by Congress and the Department, and we will continue 
to monitor this important effort.
    Mr. Chairman, this concludes my statement. I would be happy 
to answer any questions you or Members of the Subcommittee 
might have.
    Mr. Costello. The Chair thanks you and now recognizes Dr. 
Sinha.
    Mr. Sinha. Good morning, Chairman Costello, Ranking Member 
Petri, and Members of the Subcommittee. Thank you for inviting 
me to participate in today's hearing on "ATC Modernization and 
NextGen: Near-Term Achievable Goals."
    Statistics tell us that even though traffic has declined 
almost 9 percent between 2004 and 2008, delays have increased. 
What it doesn't tell us is that although traffic at some 
airports has certainly declined, operations at many major 
airports have continued to increase, leading to higher delays 
across the NAS. For example, the summer traffic, June through 
August, of 2008 is up 9 percent compared to 2000 at seven major 
airports: Atlanta, Newark, Houston, Kennedy, LaGuardia, O'Hare, 
and Philadelphia.
    I will touch upon just a few of the near-term initiatives 
which have been implemented or are under way.
    RNAV procedures implemented at Atlanta in 2006 have 
increased throughput and reduced delays, with a measured 
capacity gain of nine to 12 departures per hour. This equates 
to $30 million annual benefits. Similar procedures have been 
implemented at airports such as Dallas-Fort Worth, Las Vegas, 
Los Angeles, and Phoenix.
    RNAV and RNP applications also help deconflict operations 
at major airports in close proximity. The use of an RNAV 
departure procedure at Chicago O'Hare in combination with an 
RNAV approach procedure for Chicago Midway allows both traffic 
streams to flow without interfering with each other.
    The airports that are approved to use a new procedure for 
dependent closely spaced parallel operations are Boston 
Cleveland, Philadelphia, Seattle, and St. Louis. Cleveland, for 
example, experiences reduced visibility conditions about 23 
percent of the time. With this new procedure, up to 16 
additional aircraft will be able to land each hour during 
periods of low visibility.
    The New York/New Jersey/Philadelphia metropolitan area 
airspace redesign, when fully implemented in 2012, will provide 
a 20 percent reduction in delay and approximately $250 million 
in annual user benefits. Similar airspace projects are under 
implementation at Chicago and Houston.
    To facilitate general aviation operations at small 
community airports, new RNAV approach procedures with vertical 
guidance are providing low-visibility access using GPS and the 
Wide Area Augmentation System, known as WAAS. There are 
currently 1,333 RNAV approaches with vertical guidance around 
the U.S. at 833 airports.
    ADS-B-based weather, NAV status, and traffic information 
services have been available to GA pilots in southern Florida 
since November 2008. Such services will be available nationwide 
by 2013.
    An important initiative in its early stages is the Aviation 
Safety Information Analysis and Sharing, known as ASIAS, which 
integrates public and private data from government and industry 
for the purpose of identifying safety trends and detection of 
systemic risks before they contribute to accidents.
    Procedures generally known as optimized profile descents 
use reduced thrust, resulting in fuel and emission benefits. 
Variations of optimized profile descents are undergoing trial 
implementations at Louisville, Los Angeles, Atlanta, and Miami.
    Looking ahead, the FAA and the aviation community will need 
to invest in new technologies, procedures, and, in some cases, 
new policies to meet current and future needs. Some examples 
are: closely spaced parallel runway operations, surface traffic 
management and surveillance, air-ground data communications, 
and new decision support tools for controllers and traffic flow 
managers as well as for pilots.
    The Performance-Based Aviation Rulemaking Committee, known 
as PARC, and Commercial Aviation Safety Team, CAST, and RTCA 
are three examples of collaboration between FAA and the 
aviation community to make NextGen happen. The recently formed 
RTCA NextGen Implementation Task Force, convened at the request 
of the FAA, is building aviation community consensus on overall 
priorities and strategies to implement near-term and mid-term 
improvements.
    NextGen implementation also depends on a strong partnership 
among multiple government agencies: NASA, Department of 
Commerce, National Weather Service, Department of 
Transportation, the FAA, Department of Homeland Security, and 
Department of Defense.
    In summary, there are many near-term improvements that make 
a real difference in the performance of the NAS. While these 
provide significant benefits, more needs to be done in the 
areas of technology, procedures, and policies.
    And finally, it is important to recognize that implementing 
NextGen will require significant collaboration and investment 
across multiple government agencies, as well as private 
industry.
    Mr. Chairman, this concludes my testimony. I would be happy 
to answer any questions the Committee may have.
    Mr. Costello. The Chair thanks you and now would like to 
welcome and thank Mr. Robert Tobias for joining this panel.
    Mr. Tobias is a panel member for the NextGen study for the 
National Academy of Public Administration and is also the 
director of Public Sector Executive Education at American 
University.
    Mr. Tobias, thank you for being here, and you are 
recognized.
    Mr. Tobias. Chairman Costello and Ranking Member Petri and 
Members of the Subcommittee, thank you for inviting the 
National Academy of Public Administration to testify at this 
hearing.
    I served as a member of the NAPA panel that issued the 
September 2008 report entitled, "Identifying the Workforce to 
Respond to a National Imperative: The Next Generation Air 
Transportation System." The panel was convened in response to 
ongoing concerns raised by GAO and ATO, who engaged the 
National Academy in June 2007 to, one, identify the mix of 
skills needed by the nonoperational workforce to design, 
develop, test, evaluate, integrate, and implement NextGen; and 
two, to identify strategies to acquire those skills.
    Now, the nonoperational workforce includes positions such 
as systems engineers, project managers, contracting 
specialists, researchers, persons in business and financial 
management, but does not include the air traffic controllers, 
safety inspectors, and other employees who install, test, and 
repair equipment.
    The panel identified a list of workforce competencies that 
are contained in my full statement that are critical to 
NextGen's success. The panel then recommended a comprehensive 
approach to obtain the necessary competencies that includes: 
reviewing the existing human resource flexibilities made 
possible under the FAA's 1996 human resources reform 
legislation; two, reviewing all of the government-wide 
flexibilities available; and recommending, if necessary, the 
creation of new flexibilities to address ATO's unique needs.
    Within this framework, the panel recommended several key 
strategies targeted to the career employees to acquire the 
skills needed by the ATO acquisition workforce. First, we 
recommended that this program be aggressively marketed by 
creating and marketing the NextGen vision and mission. The 
panel found that FAA and ATO could do more to generate 
excitement and interest around the NextGen vision to make the 
work more attractive to prospective candidates.
    Two, we recommended developing a more strategic approach, 
creating a pipeline of talent in science, technology, 
engineering, and mathematics occupations which will be critical 
to NextGen's success.
    Competency identification is important. Strategies to 
attract and retain the necessary competencies are important. 
But the panel found that the single most important elements of 
success for large-scale systems integration efforts like 
NextGen is effective leadership.
    So the first question is, do current FAA leaders have the 
leadership skills to design and implement NextGen? I think the 
short answer is "no." But the panel did find the existing FAA 
leadership program to be very comprehensive in its approach and 
that a platform exists to provide the appropriate training and 
professional experience needed by NextGen leaders.
    However, to be successful, the panel concluded that the 
program needs to continue to focus on some key competencies 
already included in the program, as well as expand its focus on 
leadership development competencies that are found in other 
programs. And we created a comprehensive list that is included 
in my testimony.
    The other critical elements of leadership identified by the 
panel include: effective communication, creating the right 
governance structure to ensure that the changes suggested by 
the new leadership competencies are heard and implemented, and 
acquiring the skills necessary to create a culture that is 
receptive to the significant organizational and individual 
changes implicit in NextGen. FAA is addressing each of these 
elements of leadership as the report is being completed.
    In addition to leadership, the panel identified several 
other implementation challenges that may impede the progress of 
NextGen. They included, first, the NextGen plans. The panel 
recommended that ATO complete its work to develop a detailed 
NextGen implementation plan and communicate it to the 
workforce, stakeholders and Congress. We were told that this 
plan would be issued, and we commend FAA for meeting this 
important milestone.
    Second, labor management relations: As you know, FAA's 
workforce is highly unionized, and the ATO's ability to 
successfully transition to NextGen will require that the Agency 
develop and implement a breakthrough strategy to successfully 
engage the unions that represent its employees, who are in some 
cases the end users of NextGen technology. I certainly want to 
associate my remarks here with those of Chairman Oberstar, who 
pointed out in his opening remarks that people do, indeed, make 
the technology work.
    Third, human resources: The panel recommended that FAA and 
ATO evaluate the structure and content of their HR operations 
and services to ensure that both are optimally designed to 
support NextGen.
    In conclusion, the Academy panel is confident that FAA will 
take the necessary steps to meet its short-term goals of 
acquiring the necessary competencies. However, the panel is 
much less optimistic that ATO has created the right 
organizational environment to actually retain and maximize the 
contributions of those competencies. Until ATO fully addresses 
its implementation challenge, especially its leadership issues, 
the panel is concerned that these issues may derail the 
Agency's NextGen plan.
    Mr. Chairman, that concludes my statement. Thank you for 
inviting the National Academy to testify at this hearing, and I 
would be happy to answer any questions.
    Mr. Costello. The Chair thanks you, Mr. Tobias.
    The Chair now yields to the Chairman of the Full Committee, 
Chairman Oberstar.
    Mr. Oberstar. I promise you just one question for Dr. 
Dillingham and Inspector General Scovel.
    As to this reorganization structure of the FAA that we have 
just come across recently that was created out of whole cloth 
without any legislative authority, establishing a senior vice 
president in four positions and a string of vice presidents for 
various activities: There is only one vice president in the 
government. We have never had in any government agency any 
designation of this kind. This is an arrogance ascribing to 
itself authority and corporate, sector-like status that has no 
foundation law nor authority.
    In restructuring in defiance of Vision 100, the joint 
planning and development office, putting it down at the bottom 
of the organizational chart, how in heaven's name does this 
advance the cause of NextGen?
    Mr. Dillingham. Mr. Chairman, I think, to start off with, 
the GAO has always been in support of the reorganization in 
which the Committee has included in its reauthorization bill. 
And we still support that, but I would like to add to that, 
that the reorganization that ATO undertook began to address 
some of the concerns that the stakeholders had about trying to 
have a unified place where authority and responsibility would 
reside, but it did not address all of the issues.
    Now, what we have is, in our opinion, even greater 
confusion in terms of who is in charge and where the 
responsibility stops. You have what the Committee has proposed. 
You have the ATO reauthorization. You have the executive order, 
which also lays another dimension on it.
    So it is clearly a concern to us, but I think, in the end, 
whatever the Committee decides to do--although organizational 
structure is important, one of the things that we want to look 
at is sort of what is the outcome. I mean, the process is very 
important, but equally important is the outcome; and it is not 
clear how another reorganization would affect this whole 
process.
    You know, the bottom line is, there is work to be done 
here.
    Mr. Scovel. Good morning, Chairman Oberstar.
    As our statement today makes clear, we think that the 
Committee's proposal in the reauthorization bill to name an 
associate administrator for NextGen, reporting directly to the 
FAA administrator, has merit, and that is the expression that 
we use in our statement today. We are on the record with that 
same term in hearings past.
    We think the jury is clearly out on the current 
organization of NextGen, which places it within the ATO. As our 
statement, I hope, makes clear, we have reservations about the 
roles and responsibilities of the NextGen operation under the 
ATO. We think that it has led to fragmentary budgetary 
responsibilities, specifically with respect to programs having 
to do with en route services, with terminal modernization, and 
with ADS-B. Ms. Cox does not have budgetary authority over 
those programs.
    We also think that it may potentially lead to confusion on 
the interagency side. When Ms. Cox must deal with DOD, with 
Homeland Security, with the Department of Commerce on NOAA and 
weather questions, we think that the higher visibility 
provision, reporting directly to the FAA Administrator, will 
certainly give the Agency that needed leverage.
    I will acknowledge the concerns of some of the industry 
stakeholders that this organization may present an opportunity 
to better match operations with NextGen initiatives, but I 
think those have to be balanced against the countervailing 
considerations that I just mentioned.
    Mr. Oberstar. Thank you both very much for those thoughts.
    It underscores, Mr. Chairman, the urgency of getting the 
other body to move our bill and for this administration to come 
forward with their recommendations for revenue, which is really 
holding up the process at Ways and Means.
    I just a moment ago said on the House floor that our 
patience is running out. They need to get their act together, 
to put forward their proposals for the future of the revenue 
stream at FAA, and we need to fix this organizational chart 
that arrogates unto itself titles that have no meaning and no 
ability to improve the performance. We are going to stay on 
their case.
    Mr. Costello. Thank you, Chairman Oberstar.
    Let me just follow up by commenting, not only is this 
restructuring within the FAA contrary to Vision 100, but the 
FAA knew very clearly what this Committee's and the full 
House's position was in H.R. 2881. The language for the 
associate administrator's making the person in charge of JPDO, 
reporting directly as an associate administrator to the FAA 
administrator, was clearly the intent of this Committee when we 
passed H.R. 2881, and it was clearly the intent of the House 
when they voted.
    It was interesting, after the restructuring came out, that 
we learned about it in news reports, and I contacted Mr. 
Krakowski at the time and the acting administrator and said, 
Did the thought ever cross your mind that the House has already 
spoken on this issue? We are waiting to hear from the other 
body, and you have heard from the GAO, and you have heard from 
the inspector general. Did the thought cross your mind to 
consult with the Committee or to consult with staff?
    You are exactly right. I mean, there is a level of 
arrogance here that you are very correct in pointing out; and 
we need to get this straightened out. If, in fact, NextGen is 
going to happen and if, in fact, the Agency has the ability to 
handle a project of this magnitude, the way that we are going 
to be able to get that done is to make certain, as I said in my 
opening statement, that the White House is committed and will 
be involved in the process. Also that the person who is in 
charge of implementing this project will, in fact, report 
directly to the administrator and will give the level of 
visibility that it deserves if, in fact, this is the priority 
project that everyone wants it to be.
    Mr. Oberstar. If the Chairman would yield just briefly, 
Vision 100 was done during, I think, Mr. Duncan's Chairmanship 
of the Aviation Subcommittee. We reaffirmed those decisions 
made back then when we crafted the bill in the last Congress. 
So the actions of FAA are in contravention of bipartisan 
judgment on the needs of the future of aviation and the future 
structure and delivery capability of FAA; and I am very 
disrupted by it.
    Mr. Costello. The Chair thanks you.
    We will ask just a few questions and then call on the 
Ranking Member.
    Dr. Dillingham, you, or the GAO, recently took the ATC 
modernization off the high-risk list. I am wondering, number 
one, if you will comment as to why you did that, and number 
two, are you taking NextGen off the high-risk list, too; or is 
there a distinction between the two and the way you view them?
    Mr. Dillingham. Thank you, Chairman Costello.
    Yes, we did. After 12 years on the high-risk list, we 
removed FAA's ATC modernization program from that list. The 
reason we did that is that we set some criteria, including 
bringing in some of those systems on time and on budget, coming 
closer to the goals that they set, as well as putting in place 
the management capabilities that would maintain that.
    The Congress established the ATO with part of its mandate 
being, you know, fix up ATC modernization, and we measured from 
the time the ATO was established until, I think, it was 2008. 
During that course in time, the FAA met the criteria; its costs 
and schedules came into line. They implemented about 50 of our 
recommendations that we put forward to make sure ATC 
modernization was on the right track.
    We do make a distinction between ATC modernization and 
NextGen. ATC modernization was almost totally, from our 
perspective, systems acquisitions; and NextGen is a complete, 
you know, curb-to-curb, multi-Cabinet-level agency, a 
multiapproach to transforming the system. We have not placed 
NextGen on our high-risk list, primarily because it is just 
beginning to start implementation, and so we wanted to wait 
until we had, you know, enough information to see where it was.
    This Committee has asked us to establish a monitoring 
program and give you real-time information on the progress of 
NextGen, and we will certainly be doing that beginning in the 
next quarter.
    Mr. Costello. While you have not placed it on the high-risk 
list, it is, in your opinion, a high-risk project; is that 
correct?
    Mr. Dillingham. There is no question that it meets a lot of 
the primary criteria. Mainly, it is high dollar, it is very 
complex, and it is a long time running. So--those are some of 
the primary characteristics, so it is high-risk; it is just not 
on our list yet.
    Mr. Costello. Mr. Scovel, you credit much of the ATO's 
ability now to better manage the cost and schedule of the ATC 
modernization to its incremental approach to acquisitions in 
particular. That is something that we have asked for and that 
we have discussed many times in your testimony and in Dr. 
Dillingham's testimony.
    I wonder if you might elaborate and explain the credit that 
you give them and explain how they have used an incremental 
approach.
    Mr. Scovel. Sure.
    Mr. Chairman, we do give credit to FAA for using an 
incremental approach that is segmenting its acquisition 
programs in order to get a better handle on overall cost and 
schedule. In no small measure that approach has been 
responsible for, I think, GAO's removal of ATC modernization 
from its high-risk list. At the same time, I think we have to 
recognize that the incremental approach has had certain 
detrimental effects.
    If we could use as an example the STARS program, which I 
know the Committee is familiar with, it began as a program to 
place terminal modernization apparatuses at 172 sites for a 
cost of about $940-plus million. As the program unwound, it 
turned into 50 sites for $1.4 billion or so, and the FAA 
confronted the need to establish a substitute program, an 
interim program with Common Arts, and that is where we are with 
terminal modernization today.
    As our statement, I hope, makes clear, what we see as the 
primary disadvantage is that with the incremental approach, as 
costs rise, as schedules drag out, frankly, as patience wears 
thin sometimes up here on the Hill--and in the Administration, 
too--the programs can come to a stop without good visibility on 
where the proper end state should be. That then can lead to a 
gap, as we are encountering today, between the state of 
terminal automation and what is needed for NextGen.
    Mr. Costello. You mentioned in your testimony, both written 
and in your summary of your testimony, about the 30 existing 
capital programs that serve, I think you described them, as 
"platforms" for NextGen and that the FAA has some critical 
decisions to make over the next 2 years. Obviously, these 
decisions are going to involve costs.
    As I said yesterday in a meeting with the Speaker on 
another topic, the devil is always in the details, and it is 
always in the funding. Has the administration in their 5-year 
capital investment plan planned for these additional costs as 
the FAA moves forward with these 30 capital programs?
    Mr. Scovel. Mr. Chairman, some programs are reflected in 
the capital investment plan by firm dollar figures when those 
programs have been officially baselined by senior FAA 
management. Other programs, though, simply have a dollar 
placeholder in the CIP. I could run down a couple of those.
    For instance, terminal modernization, that I discussed just 
a minute ago, is planned for a decision going forward in 2010; 
placeholder value, $600 million.
    The LAAS and WAAS programs: Again, decisions are pending 
for 2009-2010, but upwards of $2 billion is planned between 
those two programs.
    Traffic flow management: Decisions again pending; 
placeholder, $450 million.
    ERAM, which the Committee is familiar with, is due to be 
completed in 2011, but enhancements may be necessary in order 
to again bridge the gap and get us into NextGen territory, 
specifically focusing on the 2018 date.
    Those enhancements may cost some billions of dollars as 
well, so we can see that there are placeholders. As the next 
year or two firms up_especially with the recommendations of the 
RTCA Task Force and as FAA evaluates those_it should be able to 
apply better dollar figures to those programs.
    Mr. Costello. I thank you.
    One final question and then I will go to the Ranking 
Member. And then I will have other questions as time permits.
    You heard me talk in my opening statement about my concerns 
about the FAA, which, as you know, maintains the comprehensive 
certification program. They have recently indicated that the 
program would be limited in its scope to those systems owned by 
the FAA.
    I know that you have stated in previous testimony your 
concern about ADS-B. You expressed concerns such as, are we 
going to find ourselves in a situation where the FAA knows very 
little about a system that is expected to be the cornerstone of 
NextGen. So do you have the same concerns that I have, if we 
are going to limit the certification program just to the 
systems that are owned by the FAA and not have certification 
over programs that are not owned by the FAA?
    That gives me a lot of heartburn. I want to hear from you 
on it.
    Mr. Scovel. Mr. Chairman, we do have concerns.
    We received your request and Chairman Oberstar's request 
yesterday that my office assess the FAA's decision to back away 
from the certification of all programs and limit itself to 
those programs, to those systems, which it owns.
    You are correct. We are on the record as saying with regard 
to ADS-B that we have concerns about FAA's oversight of that 
program. As the Committee knows, FAA essentially contracted to 
buy a service and not the system itself. We think that perhaps 
there is a natural tendency in all people to think that when 
you hire a contractor and you buy a piece of hardware, you are 
also perhaps buying the oversight from the contractor, too. 
That is the danger that we would want to examine perhaps with 
FAA's actions, both with regard to ADS-B and with regard to 
certification.
    I want to make clear, however, that we are not examining 
the policy basis for any decision to enter into a contract as 
opposed to procuring or developing it in house. Our focus will 
be with oversight, with the quality of oversight, with the 
safety implications of any lack of oversight, and with the 
Agency's overall attitude towards its oversight 
responsibilities.
    Mr. Costello. I thank you.
    The Chair now recognizes the Ranking Member, Mr. Petri.
    Mr. Petri. Thank you very much, Mr. Chairman.
    I have lots of questions and would like, if I could, to 
submit some for a written response----
    Mr. Costello. Without objection.
    Mr. Petri. --given the time constraints that we are 
operating under.
    I do have one question for Ms. Cox, which has to do with 
the assertion of some that the Agency wants to decommission 
many of the current radar sites, which could end up with gaps 
in coverage and with an incomplete system.
    How are you planning to ensure there is adequate backup 
surveillance in the event of a GPS failure or some kind of 
intentional action or accident?
    Ms. Cox. Well, as you know, for the near term, the backup 
strategy for ADS-B is to use radar. We have done a careful 
assessment of the current secondary radar systems and believe 
that with about 50 percent of those current radars, we can have 
sufficient coverage.
    You might remember that when the radar coverage first was 
put into place, it was around existing capabilities. I think we 
can get better coverage today than we were able to in the past, 
and we have done the site surveys to ensure coverage with radar 
in the event that the ADS-B goes out.
    Mr. Petri. So you are confident that because of 
improvements in the technology and range of radar, you can 
operate as well with fewer sites, as was the case back when the 
original system was put in place as a supplement to GPS?
    Ms. Cox. As a supplement, yes.
    Remember, too, that there is no intention to remove any of 
the primary radar systems that we have in place, so that in the 
event of a loss of an aircraft's transmission, we will be able 
to track that aircraft.
    Mr. Petri. Thank you.
    Inspector General Scovel, at this point, who would you say 
is the one person who is in charge of NextGen? Is there 
someone?
    We have these conflicting structures and changes and so on. 
We would like to figure out whom we praise or take out and 
replace if there is a problem.
    Mr. Scovel. A tall order, Mr. Petri.
    Day-to-day responsibility for NextGen clearly belongs to 
Ms. Cox, seated down the table to my right. With the 
President's executive order from last November, however, 
President Bush designated the Secretary of Transportation as 
the most senior official in Government responsible for the 
implementation of NextGen. Clearly, the FAA Administrator has a 
role in that, too, and that position, as everyone knows, 
remains to be filled.
    There is a lot to be done, moving forward, with sorting out 
those responsibilities. I know this is a priority for Secretary 
LaHood, and he is working with Dr. Toner to establish the 
groundwork for his responsibility and authority with regard to 
the NextGen project.
    Mr. Petri. Well, it is important.
    I have one other question that I would like to ask at this 
point, and that is: In your testimony, you cite airspace 
redesign efforts as an important effort toward improving 
airspace efficiency in the near term. We are all aware of the 
congestion in the New York and East Coast area.
    Could you describe a little bit about that process and 
which airspace redesign projects hold the most promise of 
unlocking capacity in the national system, short term?
    Mr. Scovel. Yes, sir.
    The FAA has ongoing projects in the New York, Chicago, and 
Houston areas, as well as elsewhere, in order to find ways to 
unlock the hidden capacity in the NAS, if you will. In 2010, we 
are told that FAA will begin airspace work in areas such as 
Denver, Dallas, southern California, and Las Vegas.
    We have identified a couple of challenges or barriers that 
might impede FAA's progress in this area. The first would be 
establishing a linkage and maintaining it between airspace 
redesign and the emerging, performance-based navigation 
initiatives--RNAV and RNP; second, coordinating among the ATO 
lines of business to manage and oversee airspace redesign.
    Right now, airspace redesign is fairly decentralized, and 
we understand that field offices around the country are 
pursuing airspace redesign projects, certainly with FAA 
Headquarter's knowledge and funding, but they are pursuing it 
largely on their own. We think that, perhaps, some greater 
level of oversight and control by Headquarters might be 
beneficial.
    We also think that realistic funding profiles for airspace 
redesign projects are necessary. Funding for airspace redesign 
has been reduced in the last couple of budgets, and we think 
that the potential advantages would certainly merit increased 
funding.
    Mr. Oberstar. Mr. Chairman, if the gentleman from Wisconsin 
has concluded, may I follow up on that, please?
    Mr. Costello. The gentleman from Wisconsin yields to the 
Chairman.
    Mr. Oberstar. Mr. Scovel, do you know off the top of your 
head how many airports are managed by the New York TRACON? 45.
    Do you know how many operations are managed by the New York 
TRACON? 1.2 million. That is equal to all of Europe combined.
    The southern California TRACON handles 1.4 million 
operations a year; that, too, is equal to all of Europe 
combined.
    This is the most complex airspace in the world. To think 
that we can just tinker around the edges and shift a plane here 
and a plane there and an arrival here and a departure there is 
folly.
    There have been a dozen airspace redesigns over the 25 
years that I have been engaged in aviation, and every one of 
them runs into some kind of problem--either not enough concrete 
or more noise over some neighborhood group that has not been 
receiving that noise before. Nobody gets relief from the noise. 
Even if we move to Chapter 4 noise reduction, you are still 
going to have people perceiving there is more noise.
    To reduce the funding for the redesign is folly. There 
needs to be a much more serious effort at this airspace 
redesign initiative. Frankly, the FAA needs to convene the New 
York/New Jersey Port Authority and the Governors of the two 
States and put some resources into the Atlantic City Airport, 
which has a 10,000-foot runway, needs high-speed ground 
connection to the other airports in the region and to the major 
centers, and use that capacity to relieve the pressure on the 
other airports.
    Mr. Costello. The Chair thanks you and now recognizes the 
gentleman from Iowa, Mr. Boswell.
    Mr. Boswell. Thank you, Mr. Chairman.
    Mr. Oberstar, on this Committee, I am going on my 13th 
year, and I wonder when we are going to get off this subject 
and go on to something else. On this point--and I am not being 
frivolous at all--it just kind of weighs us down.
    So I will start with you, Dr. Dillingham and then all of 
you.
    What are the first two things that need to get done to get 
us to move? We all know we need an administrator; that is not 
the point, so leave that off the table.
    What are the first two things? First you and then Mr. 
Scovel and anybody else who wants to jump in. What must we do 
to get going?
    Mr. Dillingham. Mr. Boswell, that is an excellent question.
    I think one thing is the realization that ATC modernization 
is more of an evolutionary process. It is not going to be where 
we sort of all of a sudden flip a switch and we have got 
NextGen.
    Mr. Boswell. You are saying the technology is moving fast, 
but we have still got to start. We understand that.
    Mr. Dillingham. So I think the steps that are being taken 
now, which are to focus on the current delays and congestion 
use, and to make the best use of the capabilities that we 
currently have on the ground and in the aircraft, address 
immediate problems.
    Mr. Boswell. Do you have number two?
    Mr. Dillingham. Oh, okay.
    Number two is, in order to do that, it is what has been 
said a number of times: It is a people issue. It is bringing 
them in, making sure that you have the appropriate stakeholders 
involved in it, as well as, from the FAA's perspective, having 
the people in FAA who can manage and implement this, what we 
are now calling NowGen.
    Mr. Boswell. Too much turnover?
    Mr. Dillingham. No, not too much turnover. It is a need 
that is manifesting itself because of what they are trying to 
do.
    Mr. Boswell. I am thinking continuity.
    Mr. Dillingham. Well, you have had a lot of turnover, but 
the Committee has addressed that. We now have a 5-year 
administrator, but we are now in a turn--you know, a new 
Secretary, a new administrator and so forth.
    Mr. Boswell. Thank you.
    Mr. Scovel.
    Mr. Scovel. Mr. Boswell, two things: Number one would be, 
press the RTCA Task Force that is currently in session and that 
is due out this summer to deliver a comprehensive report. This 
is, we think, key, and it makes this year a critical juncture 
for NextGen's ultimate success.
    The RTCA Task Force is now the platform for stakeholders 
across the board to speak with FAA and to reach consensus on 
all of the capability and prioritization questions that have 
for so long been, frankly, frustrating the industry.
    Number two would be to use that report to complete the gap 
analysis and the interim architecture and then to move out from 
there.
    Mr. Boswell. Thank you.
    Well, I have just learned, Ms. Cox, it all fell on your 
shoulders a little while ago. So tell me, what do we need to do 
to make it happen?
    Ms. Cox. I agree with the previous two speakers. We are 
putting in place the RTCA Task Force to get commitment from 
industry and their input on what the next best steps are, using 
the existing equipment that----
    Mr. Boswell. What is your timeline?
    Ms. Cox. They report out in August of this year.
    On the FAA side, we can make better use of the existing 
capabilities that we have to use the performance-based 
navigation in important places like the New York airspace and 
others that are more congested today, like a traffic management 
adviser to do metering into those airspaces.
    We can do that today, and many operators today fly aircraft 
with capabilities that they do not take advantage of. Those 
operators and pilots are trained on those capabilities, and the 
FAA makes the capability available at the airfields.
    Then we can see great steps forward in the near term.
    Mr. Boswell. Well, I use the GPS quite a bit. You know, I 
do not think hardly any of us are asking for the airways 
anymore, but are you saying that people who have got the IFR-
qualified GPS are not using them?
    Ms. Cox. In the commercial aircraft today, about 90 percent 
are equipped to fly the area navigation capability, but far 
fewer are qualified to fly the required navigation performance, 
SAAAR approaches, that will allow us to get better use of the 
airspace that we have today. It is about 18 percent.
    Mr. Boswell. Thank you.
    Mr. Chairman, before I yield back, do we know what we have 
got to do maybe? Do we?
    Mr. Costello. Well, we are waiting on the JPDO and others 
to formulate a plan.
    Mr. Boswell. Well, thank you. I yield back.
    Mr. Costello. The Chair now recognizes the gentleman from 
New Jersey, Mr. LoBiondo.
    Mr. LoBiondo. Thank you, Mr. Chairman, for holding this 
very important hearing.
    While Chairman Oberstar has left the room, I want to thank 
him for his understanding and for the acknowledgment of the 
role that Atlantic City can play in the future, in his recent 
visit to the region.
    To our panel, thank you for being here and for what you are 
doing.
    In particular, Ms. Cox, thank you for your work. You know 
the Tech Center that I have the honor of representing and the 
work that they have done with research and development for 
safety and security and technology.
    I have, like, three questions total, but would you take a 
brief moment to explain your vision for the role of the Tech 
Center and what they will play in the implementation and in the 
integration of the NextGen system?
    Ms. Cox. Well, the role of the Technical Center, as you 
know, is extremely important in the development and 
implementation of the NextGen system. We have taken care to 
integrate capabilities at the Tech Center into our research and 
development, technology development, and prototyping and 
testing of NextGen systems; and the Technical Center will be 
very involved in the life cycle test and evaluation of the 
NextGen systems of systems moving forward.
    That test and evaluation capability is something that the 
group up there is working very hard to put into place--
benchmarking, looking at best practices out there today, 
because the ability to test the systems of systems is something 
that is new and unique as we move forward.
    Mr. LoBiondo. Thank you.
    Ms. Cox, as you know, we have had an initiative that has 
gotten under way that involves great partnership with local 
government, academia, industry, the Federal Government, 
partnering to build a research and development park on land 
that is actually adjacent to the Technical Center and focused 
on providing expertise to the FAA and to the research and 
development test and evaluation field of the NextGen system.
    In your opinion, do you feel that the facility would 
benefit the FAA in the Next Generation mission as it starts to 
get off the ground? We are expecting ground breaking in another 
month or two.
    Ms. Cox. Absolutely. These types of partnerships that the 
research and technology facility in Atlantic City provide are 
exactly the kind of partnerships that the FAA is looking at as 
we move forward.
    As I mentioned, NextGen is something that the FAA cannot do 
alone. It requires the involvement of academia, industry and 
all of our stakeholders as we move ahead.
    Mr. LoBiondo. Thank you.
    Lastly, can you explain whether the FAA is actively 
reviewing current labs at the Tech Center as well as the legacy 
research and development programs under way there to determine 
their place in the NextGen system? Can you provide me with a 
list of the labs and programs which are undergoing such a 
review?
    Ms. Cox. Congressman LoBiondo, I am not aware of any 
comprehensive review of laboratories at the Technical Center. 
We have a lot of legacy systems that depend on capabilities at 
the Technical Center for their ongoing maintenance. We have 
recently established a business continuity plan facility at the 
Technical Center; in the event one of our centers should go 
down we will use that facility at the Technical Center to 
maintain capability.
    We are developing new labs that support specific NextGen 
systems, like system-wide information management. We test ADS-B 
with the aircraft at the Technical Center. All of those are 
going forward.
    There is an assessment ongoing of a fuels laboratory in the 
Technical Center that has been funded under our research, 
engineering, and development program. That fuels laboratory is 
aimed specifically at looking at moving general aviation away 
from leaded fuels to unleaded products successfully. We have 
taken on a group of experts to examine the capabilities of that 
facility and where it might fit into the NextGen environment.
    Mr. LoBiondo. I thank you very much for your participation 
and for your answers today, for the work that you are doing, 
for your teammates at the FAA.
    Particularly, I want to thank the men and women of the FAA 
Technical Center in southern New Jersey and Egg Harbor Township 
for the outstanding work that they continue to do on behalf of 
all of us.
    So, once again, Mr. Chairman, thank you, and I thank the 
panel.
    Mr. Costello. I thank you.
    The Chair now recognizes the gentleman from New York, Mr. 
Hall.
    Let me mention that two votes have been called for on the 
floor. We have about 13 minutes for the votes, so we would ask 
that you keep it brief.
    Mr. Hall. Thank you, Mr. Chairman and Ranking Member Petri. 
Thank you to our panelists.
    Ms. Cox, the ongoing New York regional airspace redesign is 
an undertaking which has had continuing complaints about both 
the process used and the conclusions. I am curious if you think 
it might be wise to stop the continued implementation of that 
program until a comprehensive review can be put into place to 
ensure that the redesign serves the purpose that was intended 
to increase safety and efficiency, to save money, and to 
improve the act of flying for customers and flight crews.
    Should the authorization and implementation of NextGen be 
up and running before that redesign is finalized?
    Ms. Cox. Well, the capabilities that are recognized and 
used in the redesign do not require any new NextGen 
capabilities to deliver, when fully implemented in 2012, a 20 
percent reduction in delays in the New York area airspace.
    I understand that this is a very emotional issue, going 
forward. We believe, if you look at the balance of what is 
delivered with the New York airspace redesign, that we get 
improvements not only in reduction and overall noise footprint 
in the area, but a significant reduction in the overall 
emissions for the environment there; and certainly an 
improvement in efficiency and in the convenience for the 
traveling public that moves through the New York area.
    I recently saw a statistic that says either flying to, from 
or through the New York area, a third of the domestic traffic 
in the United States goes through there, and a sixth of all 
international traffic goes through.
    Mr. Hall. Great. Well, thank you very much, and I hope you 
can meet those goals.
    Dr. Dillingham mentioned in his testimony, in his written 
testimony, that there has been some progress made involving the 
labor unions that work with FAA in the development of NextGen. 
However, the union officials have expressed concerns that the 
unions are not involved in selecting subject matter experts.
    Dr. Toner, you said that a broad spectrum of 
representatives on the Federal Advisory Committee included 
aviation labor. Can you tell me, to what extent are the pilots 
included, as well as the controllers; and are they having input 
into the experts that are being brought forth?
    Ms. Toner. So we are just beginning the formation 
discussions for the advisory committee. We are committed to 
having a broad spectrum of representatives. Labor will be 
included, but we have not gotten to the point of specific 
charter or specific membership, and we will be happy to get 
back to you later as we formulate that.
    Mr. Hall. Thank you.
    Mr. Chairman, I will submit other questions for the record.
    Mr. Costello. The Chair thanks the gentleman, and now 
recognizes the Ranking Member of the Full Committee, Mr. Mica.
    Mr. Mica. Well, thank you.
    Ms. Cox and Mr. Sinha, in the best-case scenario, if 
everything went perfectly in the implementation of NextGen, how 
many years do you estimate we are looking at?
    Ms. Cox.
    Ms. Cox. Well, the introduction of NextGen is an ongoing, 
evolutionary process.
    Mr. Mica. I know. Again, to have it fully implemented, can 
you give me the number of years you would estimate?
    Ms. Cox. We have taken a detailed look at what we can 
deliver by 2018, so that is 9 years from now.
    Mr. Mica. So, in 9 years, you think you could have most of 
it--90 percent, 80 percent?
    Ms. Cox. A large percentage of it will be available in 2018 
and in modeling the capability that we believe we will have in 
2018. And we have modeled just a third of the capabilities that 
we believe we will introduce by then, and we have seen a 40 
percent reduction in delays in those models.
    Mr. Mica. Mr. Sinha, what do you think is a best-case 
scenario?
    Mr. Sinha. So let me start out by saying, if we do not do 
things by 2018, we do not have to worry about 2025, so I think 
the need and that some of the work we have done----
    Mr. Mica. Well, to be fully implemented?
    Mr. Sinha. So I think--again, I am not even sure that 
anybody can really define what "fully implemented NextGen" 
means, because the capabilities that are going to be evolving--
--
    Mr. Mica. Well, with all the aircraft equipped and with all 
the technology in place?
    Mr. Sinha. I think, if we push hard for it, by around 2018 
to 2020, we should be able to implement all of the avionics.
    Mr. Mica. So we are looking at about another 10 years?
    Mr. Sinha. Right.
    Mr. Mica. Okay.
    We are probably looking at about $18 billion more in cost, 
an $18 billion to $20 billion estimate, Ms. Cox?
    Ms. Cox. That is an estimate.
    Mr. Mica. That is good.
    Mr. Sinha. It depends on whose cost are you talking about.
    Mr. Mica. What do you think in just the total cost to 
everybody?
    Mr. Sinha. The total cost, I believe, would be more in the 
$20 to $30 billion.
    Mr. Mica. Okay, just an estimate.
    Now, I was out, and looked at some of the NextGen 
technology. I met with some of the MITRE folks, and they told 
me that the efficiencies, if fully implemented, that it would 
bring into the system would be in single digits--is that 
correct, Mr. Sinha--as far as increasing capacity and 
efficiency?
    Mr. Sinha. I do not believe that it is in the single 
digits, but it is not 100 percent.
    Mr. Mica. Is it 10 percent? Is it a 20 percent increase in 
efficiency and capacity?
    Mr. Sinha. What analysis we have done seems to indicate it 
is in the 20 percent range.
    Mr. Mica. In the 20 percent range. But if we take 10 years 
out, we will probably have 40 to 50 percent more traffic, air 
movement. Is that a guesstimate, Mr. Sinha?
    Mr. Sinha. Yes.
    Mr. Mica. Thank you.
    Ms. Cox?
    Ms. Cox. I believe that the estimates that we have 
provided--and I cannot speak for Mr. Sinha, but the 40 percent 
reduction in delays that I cited takes into account the 
increased traffic.
    Mr. Mica. I am told now it is going to be a little while, a 
decade, before we get this out there. In the meantime, some 
simple things, like airspace redesign in the New York airspace, 
could dramatically improve some of the chronic delays. Is that 
true, Ms. Cox?
    Ms. Cox. We believe that, when fully implemented in 2012, 
the airspace redesign in the New York area will reduce delays 
by 20 percent.
    Mr. Mica. I am told about 80 percent of the chronic delays 
are now coming from the New York airspace. Is that a 
guesstimate, Ms. Cox? Or anybody else?
    Ms. Cox. I think the contributions of the New York airspace 
are significant to delays across the country.
    Mr. Mica. Mr. Dillingham, have you looked at that?
    Has anybody?
    Mr. Dillingham. No, we have not, Mr. Mica.
    Mr. Mica. Then it appears that we have gone about as far as 
we can go in implementation. Maybe we could do some other 
things.
    I was told by FAA in the past that, for ground stations, we 
have got about a $1.9 billion contract out. Is there something 
else that we could do right now, Ms. Cox, that would move the 
project forward, an expenditure of money or a step by FAA?
    Ms. Cox. By applying more performance-based navigation 
capability and by equipage by more operators. Right now, as I 
mentioned earlier, about 18 percent of our air transport are 
equipped to fly the required navigation performance procedures 
that would allow us to deconflict a lot of the----
    Mr. Mica. Minor things could be done. Does that take big 
budget dollars?
    Ms. Cox. Well, to equip a transport aircraft, yes, it does 
require a major----
    Mr. Mica. This is on the transport aircraft. Now, who 
should pay for that, the government or the carrier?
    Ms. Cox. That is a policy decision that is not under my 
purview.
    Mr. Mica. Okay.
    Well, one of the things, in conclusion here, is that we 
still have a question about direction. The FAA, I guess, today 
was criticized a bit for certain organizational patterns that 
they have developed. The problem is, we have not done an FAA 
bill since--I guess the last one was due in September of 2007. 
We have not had an FAA administrator since September of 2007.
    Just a few minutes ago we extended out FAA reauthorization 
until September. Now, if anybody is responsible for the mess, 
it is Congress.
    The other side took this over. The other side in the Senate 
blocked the airspace redesign, basically--I believe they have--
which accounts for our delays, for our biggest number of 
delays, something we could do right now. If we have no pattern 
of organization, certainly that would be set out in an FAA 
reauthorization, not a bunch of people, without a leader in 
FAA, making the decisions.
    You all agree with that, don't you?
    Ms. Cox? You do not want to comment.
    Thank you. I yield back.
    Mr. Costello. The Chair will have to comment then.
    I would say that, one, it is the other body. We passed an 
FAA reauthorization bill through this Committee in the House.
    Secondly, we have not had an FAA administrator. We had an 
acting administrator under the Bush administration, Mr. 
Sturgell, and the President of the United States at the time, 
President Bush, charged the responsibility of moving NextGen 
forward and put it in the hands of the Secretary of 
Transportation, the then-Secretary, as Mr. Scovel testified to.
    There is one quick question, I think, that the gentlelady 
from California has, and then we will dismiss the panel.
    Ms. Richardson. Thank you, Chairman Costello, for giving me 
this opportunity to ask a very brief question.
    Ms. Cox, do you perceive that the aircraft controllers are 
part of your stakeholders in implementing NextGen?
    If so, are they a part of the RTCA? If not, why?
    What do you intend upon doing to incorporate them as 
stakeholders if you feel that they are? What are you planning 
on doing to assist them to develop the skills to participate in 
that process?
    We have got votes, so if you could say that, as I did, in 
40 seconds or less.
    Ms. Cox. The labor force are extremely important 
stakeholders as we move forward. We have employed hundreds of 
active controllers as we develop the requirements and the 
concepts that we are moving with.
    The RTCA Task Force that you have heard discussed today, 
NATCA is a member of the task force, and they are participating 
in that.
    As for the governing body, the main advisory committee that 
is part of the RTCA--that is, the Air Traffic Management 
Advisory Committee, the ATMAC--the head of NATCA sits on the 
ATMAC, the main advisory committee, and he also sits on the 
senior management board for NextGen, the NextGen management 
board.
    Ms. Richardson. Well, the Chairman is going to dismiss this 
panel, as I understand. I am sure we are going to hear some 
other perspectives from the next panel. I would just ask that 
at some point the two of you get together because it does not 
seem like that connection is clearly being made.
    Mr. Costello. The Chair thanks the gentlelady.
    As you noted, Mr. Forrey will be on the next panel, and we 
will ask him, from his perspective, to address the issue as 
well.
    The Chair thanks all of you for being here today and for 
offering your thoughtful testimony. There are some other 
questions that we will be submitting to you in writing, and we 
ask that you reply.
    With that, we have about a minute to get to the floor, so 
the Subcommittee will stand in recess for 20 minutes, and then 
we will reconvene. I would ask the second panel when they come 
in the room to be seated so we can begin immediately.
    Again, thank you for your testimony.
    The Subcommittee stands in recess.
    [Recess.]
    Mr. Costello. The Subcommittee will come to order.
    The Chair would like to welcome the second panel. The first 
witness on the second panel will be Ms. Marion Blakey, who is 
the president and chief executive officer, Aerospace Industries 
Association of America; Mr. Peter Bunce, president and CEO, 
General Aviation Manufacturers Association; Mr. James May, who 
is the president and CEO of the Air Transport Association; 
Captain Rory Kay, executive air safety chairman and United 
Airlines pilot, ALPA; Mr. Patrick Forrey, who is the president 
of the National Air Traffic Controllers Association; and Mr. 
Tom Brantley, who is the president of the Professional Aviation 
Safety Specialists.
    The Chair will ask each witness to summarize their 
statement, and know that your entire statement will appear in 
the record.
    The Chair now recognizes the former FAA administrator, Ms. 
Blakey.

 TESTIMONY OF MARION C. BLAKEY, PRESIDENT AND CHIEF EXECUTIVE 
OFFICER, AEROSPACE INDUSTRIES ASSOCIATION OF AMERICA; PETER J. 
   BUNCE, PRESIDENT AND CEO, GENERAL AVIATION MANUFACTURERS 
  ASSOCIATION; JAMES C. MAY, PRESIDENT AND CEO, AIR TRANSPORT 
 ASSOCIATION; CAPTAIN RORY KAY, EXECUTIVE AIR SAFETY CHAIRMAN 
  AND UNITED AIRLINES PILOT, ALPA; PATRICK FORREY, PRESIDENT, 
NATIONAL AIR TRAFFIC CONTROLLERS ASSOCIATION; AND TOM BRANTLEY, 
      PRESIDENT, PROFESSIONAL AVIATION SAFETY SPECIALISTS

    Ms. Blakey. Good afternoon, Chairman Costello, Ranking 
Member Petri. I must tell you that I am delighted to be here 
before this Committee again. And I thank you for the 
opportunity to testify.
    I am here representing the Aerospace Industries Association 
and our almost 300 member companies. Our industry is 
responsible right now for about 2 million high-paying, high-
tech jobs in this country, $95 billion in exports, and we are 
very proud of our positive trade surplus of $57 billion last 
year, the largest of any manufacturing sector.
    It was very good to hear the remarks of the first panel. 
And I must say, I like levelling up on NextGen. This is quite 
an opportunity for all of us. And they certainly expressed the 
kind of support that our industry shares for the NextGen 
itself.
    I would like to make just a few points about NextGen and 
what we can achieve in the near term with one overall theme: 
the benefits of NextGen are closer than we think. I spend a lot 
of time advocating for NextGen. People are always surprised 
when I tell them that NextGen implementation has already begun. 
In fact, with 11 ADS-B ground stations installed, commissioned 
and in South Florida right now, we are well on the way. And I 
understand that all 793 stations are on schedule and will be 
installed across the country by 2013.
    But there is an issue. Aircraft are not required to be 
equipped with ADS-B avionics to take full advantage of 
NextGen's benefits until 2020. So we will have this 7-year 
period during which we have half of the puzzle in place. The 
obvious solution is to provide equipage incentives for 
operators to shrink the 7-year gap and reap the benefits of 
NextGen as soon as possible. The interactive nature of ADS-B 
technology means that we do have to have critical mass of 
operator equipage to realize the system's full benefits for all 
of us.
    Now, we all know the industry came together to request 
grants for NextGen-enabling avionics equipment in the recovery 
package. Unfortunately, we weren't persuasive enough at the 
time. But I have to tell you, I think we will be making a 
persuasive and compelling case. With the focus coming up in 
this Congress on environmental legislation, let's also not 
forget that the environmental gains possible through NextGen 
are considerable: Continuous Descent Arrivals, Required 
Navigation Procedures, and Area Navigation Departures and 
Arrivals, CDAs, RNP, RNAV_we have heard a lot about them all 
this morning. And they are already being designed, built, and 
flown throughout the country. They are available and a big part 
of the efficient technology and management that is going to cut 
fuel burn and emissions by as much as 15 percent when NextGen 
is fully implemented.
    The manufacturing industry and the government are working 
hard on many other advances that will contribute to NextGen to 
reduce carbon emissions: composite materials, alternative 
fuels, engine technologies, among other steps. They are part of 
the three pillars of environmental efforts we believe our 
industry must fully exploit in order to achieve sustainable 
growth. The three pillars are, one, green R&D and technology 
development; two, improved air traffic management; three, 
streamlined operational procedures. And there is a fourth 
pillar, market measures.
    Committees in both the House and the Senate are considering 
variations on the theme of emissions trading or cap-and-trade. 
Aviation in Europe is under an emissions trading system slated 
to go into effect in 3 years. While, as an industry, we do not 
oppose economic market measures for reducing aviation CO2 
emissions, we believe that in today's economic climate, such 
measures have to be positive, not negative incentives. And in 
the case of an industry like civil aviation, where we already 
have a very efficient system and no currently viable commercial 
alternative energy source today, any economic measure must be 
global in nature, consensus-based, and developed through a body 
like the U.N. International Civil Aviation Organization, ICAO.
    A final NextGen challenge I would mention is incorporating 
unmanned aircraft systems into the civil airspace. To allow 
these valuable assets to be used by domestic agencies, the FAA 
needs sufficient investment to be able to safely integrate them 
into the NAS. We have got to have the foresight to invest in 
the full slate of NextGen technologies today. That is the point 
I hope we take away from this hearing. There is a long list of 
benefits that NextGen can provide, not only near term but 
immediately. Thank you very much.
    Mr. Costello. The Chair thanks you, and now recognizes Mr. 
Bunce.
    Mr. Bunce. Chairman Costello and Ranking Member Petri, 
thank you very much for having me here today to talk about what 
we can do and the commitment of the General Aviation industry 
toward NextGen, both in the near term and the long term.
    First of all, I would be remiss to say that, within that 
subset that my colleague, Ms. Blakey, talked about, General 
Aviation supports 1.2 million jobs in this Nation. And when you 
look at the $150 billion annual contribution, it is important 
to note that this industry that works for an aviation nation is 
one of the only key sectors in manufacturing that has that 
balance of trade surplus. And for General Aviation 
manufacturers, that ended up being about $5.9 billion last 
year.
    But, with that said, this industry is hurting, hurting big 
time right now. We have shed about 12,000 jobs just in the last 
3 months. And of course, the continuing vilification of the use 
of business jets because of the misuse by a few CEOs and the 
painting of the whole industry poorly, I can directly tell you, 
has impacted jobs. I was just in Wichita yesterday, and the 
layoffs are a result of orders slowing down. And those orders 
are slowing down because of this vilification. And we hope that 
this Committee, being the experts on aviation in this body, can 
communicate both with the administration and their colleagues 
to think before some of the statements they make, because it 
does impact a great, great American industry.
    But with all that said, our commitment to modernization is 
absolute. And our manufacturers are so committed to this that 
we populate every single one of those advisory committees that 
was talked about in the last panel. And as we look at how 
quickly traffic recovered after the recession in the early part 
of this decade and 9/11, everything recovered within 3 years. 
So we anticipate that we will be back to those type of same 
traffic levels very, very soon. So we have to get things going.
    Now, one element that is different this time is the fact 
that this environmental legislation that most likely will go 
forward and the President's call for the raising of over $600 
billion in revenue, it is absolutely critical that that money 
that is paid, if in fact we do go forward with either a cap-
and-trade program or some type of carbon tax, that that money 
does go back into aviation, because it is only through that 
influx of money that we can go and accelerate NextGen and be 
able to reap the environmental benefits, which are truly 
significant. And we hope that this Committee will be a very, 
very staunch advocate for being able to capture those dollars.
    When we look at also the near term, it is important to 
still look at what the end state will be. We in industry have 
some true concerns still that we have not defined what that end 
state will look like. And if we say that we are going to have 
full implementation somewhere in the range of 2025, it is 
absolutely imperative that we still get the controllers and the 
pilots together and decide what type of architecture is 
actually going to exist in the end state, because as the FAA 
says, it takes 10 to 15 years just to lay concrete. If concrete 
is the issue, and even if we are going to plow a runway and 
build it right in the middle of two existing runways, we have 
to know what that end state is going to look like to be able to 
tell you all what we need to do in this mid-term.
    But focusing on the mid-term there and accelerating ADS-B 
is one of those areas we think that we can see some great 
benefit. Right now, the 794 stations that are going to be 
deployed basically lay over the current radar network and give 
roughly that same type of coverage. If we can expand that, 
particularly for communities that don't have radar coverage 
going into their airport, we can provide an incentive for 
equipage. We also provide incentives by just going and 
accelerating the ground infrastructure a little earlier.
    But coupled with that is going in and incentivizing 
aircraft to equip. And there are a lot of things that the 
government can do to be able to go and get the airlines and 
General Aviation to equip with all of this technology just for 
ADS-B before that mandatory equipage date of 2020. Because we 
all know, if we wait that long to equip and if you are not 
incentivized to do so, none of this can happen. This is bedrock 
technology.
    We also know that to certify the equipment that has to go 
up there, we need more certification engineers in the FAA. Now 
we in industry have been asking for that for multiple years. We 
know you have concerns about certification of different 
equipment out there. But unless we get more people to certify 
it, they can't keep up today with what we have asked them to 
do. We know they will fall behind. Also, on flight standards, 
we need some more people to be able to go and get these 
approaches on the books and get them quickly.
    We think there is a very strong partnership with third-
party entities out there, but we think that we need to work 
that aggressively to get Oklahoma City manned to the level that 
they can go and help us populate with the number of RNP and the 
different procedures that we need out there to be able to go 
and reap the benefits of NextGen earlier.
    And finally, when we talk about just being able to give you 
a plan if we are able to accelerate any elements of NextGen, we 
would ask that this Committee tell the FAA that they have got 
to come back to you with an incentivization plan for equipage, 
because if we have the FAA reporting to you, we know that the 
stakeholders will be part of that discussion with the FAA on 
how we can do that. If we have a plan, we will have it in the 
file and ready the next time we have an opportunity to 
accelerate the whole process.
    Thank you, Mr. Chairman.
    Mr. Costello. We thank you.
    And the Chair now recognizes Mr. May.
    Mr. May. Thank you, Mr. Chairman.
    Let me start by associating myself with the remarks of Mr. 
Bunce on the environment. It would be critical to have revenue 
flow back into aviation to be able to meet those targets.
    You know, we are here today as a major stakeholder in this 
process talking about near-term achievable goals. And in part, 
I would like to try and focus on a couple of questions and 
conversations that were held earlier this morning, first of all 
with Mr. Boswell. We have a near-term achievable goal. It isn't 
2018. It isn't 2025. It isn't 2020. It isn't 30 to plus $40 
billion. It is having this Committee and its counterpart 
committee on the Senate side and the administration declare 
that it is time for this Nation to establish a real priority 
for aviation infrastructure in much the same way the Eisenhower 
administration established a priority and did the funding for 
the national highway system infrastructure, ground-based 
infrastructure back in the 1950s.
    I think there is a way to do that. I think it can be done 
at half the cost that we are projecting. I think the benefits 
are wonderful opportunities for benefits, and we can go through 
with them. I think there are four or five key foundational 
technologies that are available to be accelerated today that 
are in use. It is not new requirements. They are already there. 
And I think that is what, if you want to try and figure out 
where this Committee needs to go, where it needs to drive this 
Nation, then I think it is to establish aviation 
infrastructure, Next Generation, Now Generation, as the number 
one priority for this industry.
    And we all can come together, whether it is on equipage or 
ground-based systems, to be able to put that forward. What is 
at stake? $41 billion a year, which is the cost of air traffic 
delays. That is 12 for passengers; 10 for the economy; 20 to 
airlines. Microcosm for our friend from New York; $2.6 billion 
a year grows into $80 billion if we don't do New York airspace 
redesign.
    So what are we going to get if we just have the status quo? 
We are going to have the FAA and the Federal Government spend 
$20 billion, $30 billion. It is going to take them until 2018 
or 2020 to get the project done. And we are going to have all 
these crushing costs of delay come down on top of us that we 
can't sustain as an industry.
    What happens if you accelerate it and change it? You retain 
thousands of jobs. You improve customer service. You reduce 
fuel burn and CO2 emissions. You enhance safety and security. 
You keep the airlines competitive and the United States 
competitive as a world market. We reduce, ultimately, FAA 
operating costs.
    So what do you think that plan ought to look like? ADS-B, 
RNAV/RNP, electronic display upgrades, GBAS, Ground-Based 
Augmentation Systems, which are a current term, for those who 
don't follow it, for local area augmentations, what used to be 
known as LAAS. And then for my friends in the GA community, 
LPV, which is Localizer Performance with Vertical Guidance. 
Focus on those five technologies. We have got a lot of the 
technology available in the planes for some of them today. We 
can equip the aircraft today very quickly for the remaining 
technologies.
    There is ground system equipment that needs to be put in, 
and there are systems that need to be accelerated and developed 
and designed. You can accomplish, if we have the will, if 
Congress has the will, the administration has the will, you can 
accomplish all of this in 5 years. It will probably be half the 
cost of the $20 billion to $30 billion that they are projecting 
out over a much longer period of time.
    Are there going to be some other hurdles to get over? We 
have talked about them today. Number one, you need to put it 
into high target areas first, New York, Philadelphia, Los 
Angeles, et cetera. Number two, you have to establish best-
equipped/best-served principles, which is to say, if the 
airplane is equipped to use this technology they get the 
advantage over planes that aren't equipped.
    There are other challenges we have to meet. Promptly 
complete airspace redesign. If we don't push it, New York, 5 or 
10 years from now, still isn't going to have New York airspace 
redesign in place.
    New separation standards and improved operations 
procedures. If we don't have a business case, if we don't get 
reduced separations, if we don't have greater efficiency in the 
system, then that investment is not worthwhile.
    And finally, please, controller acceptance and 
implementation of new procedures. You got to bring Pat and his 
guys into the process. We are very strong supporters of that. 
We can't do New York without his folks.
    And so, at the end of the day, my final comment is, if we 
did this in the 1950s for the highways, why can't we do it now 
for aviation infrastructure? I think it is a national priority 
and ought to receive all of your attention. Thanks for your 
time.
    Mr. Costello. The Chair thanks you, Mr. May, and now 
recognizes Captain Kay.
    Mr. Kay. Good morning, Chairman Costello, Ranking Member 
Petri, and Members of the Subcommittee. I am Captain Rory Kay, 
executive air safety chairman of the Airline Pilots 
Association, International. I would like to express my 
appreciation to the distinguished Members of this Subcommittee 
for drawing attention to the urgent need to modernize our 
national airspace system, or NAS, and for highlighting the 
solutions that exist today that can swiftly make a difference 
for passengers, shippers, and all who rely on air 
transportation. It is an honor to represent ALPA's more than 
52,000 pilots, who are at work in the cockpit every day.
    For decades, ALPA has pushed to modernize the NAS. The need 
for action has now become critical. The latest technology, 
which capitalizes on space-based communications, navigation, 
and surveillance systems, can provide precision and efficiency 
never before possible. Modernization promises to advance 
safety, increase capacity, reduce delays, and play an essential 
role in cutting emissions to help address climate change.
    We saw a record number of flight delays last summer. 
Passengers and shippers all paid the price for a system 
stretched beyond its limits. Government and industry worked 
together to solve the immediate problem, but air traffic 
congestion persists, and an outdated system remains the cause.
    A sustained funding source must be central to any 
discussion of modernizing our airspace. A project of this scale 
and significance cannot stop and start because of sporadic 
funding. Modernization will be expensive, and everyone who 
benefits should pay their fair share.
    It will also be a complicated and long-term undertaking. 
For this reason, it must be done right the first time. We also 
need to move ahead in a way that reflects two lessons our 
industry has already learned about airspace modernization. 
First, we can and we must leverage equipment and technology 
that is already on the airplane. Airlines have complained for 
years about sending planes to the boneyard with equipment that 
could have facilitated more efficient routing but was never 
fully used. The second lesson is that we do our best work when 
all stakeholders are involved. A collaborative partnership 
among government, the operators, and the frontline 
professionals is essential.
    This hearing is focused on how we can make progress now. 
There is encouraging news. ADS-B promises to increase safety 
and provide air traffic facilities with greater reach and 
precision than the current air traffic control radar. The up-
to-the-second traffic information could also make a quantum 
leap in preventing runway incursions.
    Both the in and out aspects of the ADS-B technology are 
necessary to realize the true potential of NextGen, and we must 
continue our commitment to both. For decades, ground-based 
technology forced pilots to connect the dots by flying from one 
navigational aid to the next to reach their destination. The 
limited number of ground-based aids rarely provided the 
shortest or most efficient route. RNAV or area navigation 
technology, allows use of shorter, more direct routes. This can 
increase efficiency, reduce departure delays, cut taxi time, 
save fuel, and alleviate congestion.
    The FAA has done a good job implementing RNAV procedures 
here in D.C. and in other parts of the country. However, the 
technology is too often used only to continue flying 
traditional procedures. These so-called overlays use new 
technology to fly old and frequently inefficient paths. It is 
time to maximize RNAV by leveraging it to design completely new 
procedures.
    Still another example of an opportunity to make progress 
right now, Required Navigation Performance, or RNP procedures, 
can allow flights to safely land on runways in worse weather 
than conventional procedures. Using RNP, Alaska Airlines pilots 
were able to safely continue more than 900 approaches in 2006 
that would otherwise have been diverted due largely to weather.
    We are already seeing some benefit from RNAV and RNP, but 
the potential exists for much more. We urge the FAA to lead the 
effort toward making the most of all that these technologies 
offer.
    In conclusion, with all of this talk of technology, it is 
important to remember that a well-trained pilot is the 
airliner's greatest safety asset. Even with the newest 
technology and automation, pilots must still have timely, 
accurate information so that we can react swiftly if a flight 
doesn't go as planned.
    Our partners, the professional air traffic controllers, 
also need accurate, reliable information on which to base their 
decisions. No one is more aware of how these new technologies 
come together with a stressed air transportation system than 
airline pilots.
    And that leads me to one final point. If it doesn't work 
for pilots when we fly the line, a procedure that may look 
great on paper will not help us capture the enormous potential 
of NextGen. Professional airline pilots and controllers must be 
involved every step of the way. Thank you.
    Mr. Costello. Thank you, Captain Kay.
    And the Chair now recognizes Mr. Forrey.
    Mr. Forrey. Thank you, Chairman Costello and Ranking Member 
Petri, for the opportunity to testify today.
    The FAA's NextGen modernization plans are, in the words of 
the GAO, a high-risk effort. NextGen is highly complex with 
many interdependent projects, requiring a large investment of 
time, money, and other resources.
    While we at NATCA believe strongly in the possibility that 
technology can help us improve the safety, efficiency, 
capacity, and environmental sustainability of the national 
airspace system, we also believe there is a right way and a 
wrong way to develop and transition into new technology. It is 
imperative, both for the safety of the NAS, and for the 
investment of taxpayers' dollars, that this project be 
undertaken in the right way. That means collaboration with all 
stakeholders.
    NATCA has a long history of supporting modernization 
through collaboration. With the Liaison Program, which was 
dismantled by the Bush administration, NATCA was instrumental 
in helping the FAA complete more than 7,000 projects to install 
and integrate new facilities, systems, and equipment into the 
NAS, as well as more than 10,000 hardware and software 
upgrades. At the height of our collaboration, NATCA had 
representatives on over 70 modernization and procedural 
development projects.
    The participation of NATCA throughout all stages of 
NextGen's development and implementation is critical to the 
success of this project. Because NATCA's members have an 
intimate understanding of frontline air traffic control, they 
are uniquely qualified to identify and address human factors 
concerns, provide insight into the needs of the system, 
evaluate the utility of the FAA's proposed technology, and the 
usability of the products included under the NextGen umbrella.
    Doing so on the front end rather than during implementation 
will save the agency time, the taxpayers' money and resources, 
while avoiding potential danger to the integrity of the air 
traffic control system. Yet the FAA refuses to collaborate with 
NATCA.
    The most recent example of the go-it-alone strategy for 
NextGen design and implementation is the New York, New Jersey, 
Philadelphia airspace redesign efforts. The FAA refused to work 
with NATCA during phase one of the project, dispersal headings 
for departures, and as a result, the program was implemented 
with serious flaws. Neither controllers nor pilots received 
training on the new procedures. The changes were not tested 
comprehensively. And there were many instances of 
miscommunication between controllers and pilots.
    And rather than learn lessons from phase one, the FAA is 
set to implement phase two, again, without NATCA involvement. 
As with all NextGen projects, we wish to be involved so that we 
can identify and help to proactively mitigate potential 
glitches and problems rather than allow the system to be put at 
risk by waiting until after the implementation to address these 
issues.
    Another perfect example of this degenerate operating 
practice by the FAA can be found in the development and 
implementation of En Route Automation Modernization. NATCA was 
recently briefed by the FAA of 109 serious problems with ERAM, 
a program we have been blocked from collaboration on and which 
implementation is now delayed again. NATCA is currently 
attempting to negotiate a formal process for our involvement 
but continues to get the run-around by the FAA. We have met 
three times in the past 4 weeks, and still the FAA will not 
provide a comprehensive proposal for our involvement. We are 
anxious to begin assessing the state of ERAM, but the FAA 
refuses to let us in.
    . I cannot stress enough that the participation of NATCA 
throughout all stages of NextGen's development and 
implementation is crucial to the success of this project. The 
right way also does not neglect the needs of the existing 
system. The FAA currently faces a serious air traffic 
controller staffing crisis, as our most experienced controllers 
continue the mass exodus that began in the imposed work rules 
in 2006. We have loss of 46,000 years of experience in the last 
two-and-a-half years. There is a backlog in training, and 
trainees are relied upon far too frequently to work traffic. 
Rampant fatigue in work force is undermining safety throughout 
the system. Meanwhile, facilities are being allowed to fall 
apart and in disrepair, putting the health of controllers and 
other aviation safety professionals at risk.
    We are very concerned that the FAA continues to ignore 
NowGen, choosing to speak only about the technological advances 
they hope to achieve 15 years down the road. We at NATCA 
believe in the potential of ADS-B, the technological 
cornerstone of the FAA's plans for NextGen. We believe that it 
has the potential to provide more precise surveillance and 
without the lag time of traditional radar, and we believe that 
it may be able to provide greater situational awareness to 
pilots, particularly during periods of inclement weather.
    We are concerned that the full capabilities of ADS-B, 
however, will not work unless they are turning off all the 
primary radars in the system, contrary to what Ms. Cox said. 
The ADS-B in will not function. There is not enough frequency 
space for all the primary radars to work while ADS-B full 
capability is working. That is a problem they have to fix. And 
we are concerned that the FAA's plans in requiring a transition 
to the single-source surveillance systems to provide navigation 
and surveillance leaves the system unacceptably vulnerable to 
natural disaster, attack, and/or technology failure.
    The FAA is also recklessly, recklessly rushing to 
consolidate facilities and services without a plan or without 
consideration of the impact on the integrity, security, and 
redundancy of the NAS. These actions will leave a geographical 
area covering hundreds of thousands of miles vulnerable to a 
single point of failure without a backup.
    And lastly, the FAA's NextGen plans have ignored the human 
factors. Their proposed best-equipped/best-served incentive 
policy, for example, significantly increases the complexity of 
air traffic control operations, particularly of concern with 
such an understaffed and increasingly inexperienced work force. 
The policy will actually reduce the efficiency of the system 
and introduce an unnecessarily unsafe risk.
    Again, such problems could be mitigated or avoided entirely 
if the FAA would be willing to have meaningful collaboration 
with NATCA. We would like to see the FAA development of this 
new technology right away, and we would like to be part of the 
solution to the problem facing today's air traffic control 
system.
    Mr. Chairman, thank you. That concludes my comments. And I 
am ready to answer any questions.
    Mr. Costello. The Chair thanks you, Mr. Forrey, and now 
recognizes Mr. Brantley.
    Mr. Brantley. Chairman Costello, Congressman Petri, and 
Members of the Subcommittee, on behalf of PASS, I want to thank 
you for inviting us to present our views on NextGen today. And 
I feel a little left out, because I can't come here to report 
any milestones that have been achieved. I can't claim to be 
forming any committee with a nice sounding acronym. I can come 
and share some concerns that we have, because frankly, that is 
all we have to work with right now.
    The biggest concern that PASS has with regard to FAA 
modernization is the change the FAA has made to its 
certification program. And certification is a process where an 
FAA technician tests and evaluates pieces of equipment and 
systems to ensure that they are safely used, that they can 
provide the service efficiently and effectively. And for years, 
the criteria that the FAA used was that any system that 
directly affected the flying public would be certified.
    Now, in September of 2007, the agency changed that 
criteria. And now it is every FAA-owned system that directly 
affects the flying public will be certified. Coincidentally, a 
month later, the agency awarded a contract for ADS-B, which, as 
it turns out, was designed for the system to be entirely owned 
by the contractor. And since the FAA will not own the hardware, 
the software, any of the infrastructure, the system will not be 
certified. And that leaves a huge gap in the current level of 
integrity within the NAS.
    And I want to thank the Chairman, as well as Chairman 
Oberstar, for the letter that you sent yesterday to the IG 
asking them to look into it, because we do believe it is a very 
serious issue.
    And you know, one of the things that I guess frustrates me 
the most with FAA modernization is, as I look at it, the fact 
that the agency has chosen to prohibit labor from being 
involved in modernization for 6 years sends a message. It is 
loud, and it is clear. And we hear it. The message is, when 
NextGen is deployed, you are not needed; you are not part of 
the picture. Whether that is the intended message or not, that 
is the one being sent.
    The agency is no longer an agency with a mission; it is an 
agency with an agenda. The agenda is, or part of it is, to 
privatize as much of the agency as possible. And that is why I 
believe the change to certification was made. You know, 
frankly, if they were required to certify things, that kind of 
puts it, you know, puts somewhat of a damper on any wholesale 
either outsourcing or privatization. But by eliminating that 
road block, even if the road block is there to protect the 
integrity of the system, that opens that up, and, you know, the 
sky is the limit now.
    As long as any new system is owned privately, then all bets 
are off, and the agency washes their hands of their 
responsibilities. And I think that should concern everyone 
greatly. It sounds like a minor issue, and it is not.
    You know, I come to you today, I am the president of the 
union. I was elected by our members, but I am an FAA systems 
specialist by trade. And this is what I do. And I will tell 
you, it disturbs me greatly. And when I talk to the people that 
we represent, they are very upset because it is selling out the 
integrity of the NAS. And I don't think we should ever trade 
the integrity for any political agenda. I want to apologize if 
I have gotten off track a little, but I will conclude there. 
And I am willing to answer any questions you may have.
    Mr. Costello. The Chair thanks you, Mr. Brantley.
    And the Chair would yield time, my time, at this time to 
the gentleman from Iowa, Mr. Boswell.
    Mr. Boswell. Well, thank you, Mr. Chairman.
    Mr. Brantley, I call it straight talk. Thank you. So don't 
feel bad.
    Mr. Chairman, I think about the stuff we talked about 
earlier this morning, and talking with Chairman Oberstar and 
you, and the time we have been spending on this subject and the 
cost and the need. If I could digress a little bit, it reminds 
me of a story, a true story, a revival going on back in the 
Midwest. This actually happened. And they had this revival in 
the outdoors, in the timber, the woods, and quite a setting. 
And this old gentleman in the audience or in the congregation 
kind of got moved by everything, and he wanted to do better. 
And he got up during the closing testimony, and he said, of all 
the good things that happened, what he was feeling, and he was 
aiming to do this, and he was aiming to do that, and he was 
aiming to do this as he went on to leave the revival. Well, the 
old minister up front, he got tired of hearing all this 
constant what he was aiming to do, and he said, John, why don't 
you just go ahead and pull the trigger and sit down.
    Well, we have been giving, Mr. Chairman, advice, and 
advice, and advice, and advice. And I would like, if we could, 
just each of you, just what is the next thing we got to do?
    Ms. Blakey, you have been in this for a long time. All of 
you, in fact. We respect you all. What is one, maybe give us 
two, but what do we need to do today to get off center? Just 
start down and just go down the line. Give us one item, two at 
the most.
    Ms. Blakey. All right. And I want to, by the way, say a 
good hearing is one where you learn a lot. I not only learned a 
lot today but also picked up a great story, Congressman. So I 
appreciate that.
    Two things I would point to. We have to stay on track in 
terms of measurable goals, outcome, a business plan that really 
does deliver, so that we will see equipage and the necessary 
measures move forward quickly.
    Mr. Boswell. How come we don't have a business plan?
    Ms. Blakey. I think we have much of it. I think that there 
are more specifics needed. But I do believe incentives for 
equipage would be an enormous step followed. It is the long 
pole in the tent. And that is something that Congress can help 
us with.
    And I would also say that more funding for RNP, RNAV; we 
can use equipment on the planes today if we can get that.
    Mr. Bunce. Sir, it will be very quick. I agree with both 
points that Ms. Blakey had.
    Mr. May. Congressman, I think you need to declare the 
reform of the National Air Traffic Control System, NextGen, a 
priority equal to that established by President Eisenhower in 
the 1950s. Put the resources against it, number one. Number 
two, I think you need to put somebody in charge. Whether it 
comes from this Committee or it comes from the administration, 
somebody has to be responsible. And whoever that somebody is 
has to adopt a basic principle of management, which is lead, 
follow, or get out of the way. We can do this in 5 years if we 
really have the will to get it done.
    Mr. Kay. The Airline Pilots Association agrees with all of 
these remarks. It is very important to have a commitment to 
seeing this through. And the commitment to the funding is 
absolutely paramount. We want to see the stakeholders 
collaborate in a consensus-based fashion; everybody is working 
together, and we want to see an administrator.
    Mr. Forrey. Congressman, I think the promise of NextGen as 
it is today is based on a lot of technology that hasn't been 
fully developed. Don't know if it even works. To me, I think 
one of the most important things to do is to identify what our 
goals are, short-term goals, mid-term goals. I don't think they 
really have. I think they say they have. And then include all 
the stakeholders in how you get to that point.
    Mr. Brantley. Thank you, Congressman.
    I would say that the most important thing that could be 
done for the FAA today would be to get people in senior 
management positions who understand the mission of the agency 
and believe the mission is to protect the safety of the flying 
public and the entire industry rather than the mission being to 
modernize. That is something that has to occur as a matter of 
business. But that is not the objective of the agency.
    Mr. Boswell. Well, thank you.
    My time is up. I want to do one more thing, Mr. Chairman. 
I.
    Appreciate that, though. I think we have heard some pretty 
straightforward remarks. Thank you.
    Mr. Costello. The Chair thanks you and now recognizes the 
Ranking Member of the Subcommittee, Mr. Petri.
    Mr. Petri. Thank you, Mr. Chairman. Thank all of you for, 
again, appearing before this Committee or Subcommittee and 
offering your testimony on NextGen and moving that project 
forward. I will submit the balance of my questions in writing.
    But there a couple I would just like to touch on very 
briefly. And I wonder, the irreplaceable as it turns out, Ms. 
Blakey, we were hoping that cannot be said for too much longer, 
but in any event, I wonder if you could talk about the status 
of the effort that is going on in Europe that parallels 
NextGen. I think they call it SESAR. And are they encountering 
the same difficulties, or are there things we can learn from 
that? What is going on over there? Is there a danger this can 
lead them to take a leadership role in aviation, which has been 
a national asset for us since the Wright Brothers?
    Ms. Blakey. Well, I appreciate your asking about that, 
because I am very pleased that we are seeing increasing efforts 
at ensuring interoperability in what has to be a global system. 
ICAO has been stepping up. There was a major workshop last 
fall, or 3-day conference, and there are a number of working 
groups working on it. And we are seeing a great deal on a 
bilateral basis between SESAR and the FAA's effort with 
NextGen.
    However, you are pointing to something that I do worry 
about, funding. Because if we are not stepping up smartly to 
provide the funding and move ahead quickly, while we are all in 
agreement on the broad technologies_there is no debate about 
ADS-B as an example, but the specifics and the companies that 
provide it and how this moves forward_it is certainly possible 
to see European companies and others take the leading edge on 
this. They may and begin to provide much of the specific 
equipment around the world if we in this country are not 
providing for our system both the infrastructure and the 
standards we have to have so our manufacturers can also provide 
what has always been the gold standard in technology.
    Mr. Petri. Mr. Bunce, one aspect of this I guess is data, 
communication, as opposed to voice communication. Could you 
describe that and some of the advantages of this approach?
    Mr. Bunce. Yes, sir. Data communications is the element 
that we have got some true concerns on. I think we, as 
industries, we look toward the management of ADS-B in the 
field, and we have someone, Vinny Capezzuto, we can go to. He 
is doing a good job managing the program. We know exactly what 
the expectations are. But to make the end state happen, and 
again we have got to define what that end state is, but to be 
able to do these types of approaches that we want to do, to be 
able to get down from altitude by pulling the power to idle and 
then do a continuous descent to land and continuous ascent up 
to altitude, eventually we are going to have to have a 
capability of data communications from the ground to cockpit 
that is machine talking to machine. And obviously, the 
controllers play a huge role in overseeing all of that 
management.
    But we have got some concerns, because that element of 
NextGen right now is not well defined. And to be able to reap 
the benefits of NextGen in this term that we are talking about 
up to 2018, we have to have some of that better defined. And if 
you look at the timelines that are out there for ADS-B now and 
how long it is going to take to require mandatory equipage at 
2020, we are well behind where we need to be on data 
communications to be able to make it happen. So being able to 
do data link is another term that is used. The military has 
done data link for years and years. They know how to do this 
very well. It is us being able to get a plan together on how to 
use it and get buy-in from the controllers and the pilots to be 
able to figure out just mechanically and logistically how this 
will work and what is accepted and whether or not this data 
link is going to simply replace voice in the first stage and 
then move on to actually do machine-to-machine communications 
that actually routes and communicates directly with the flight 
management computer in the airplane. So those are questions 
that still linger out there.
    Mr. Petri. Thank you.
    And Mr. May, you indicated that it would be a nice idea to 
have target deployment of NextGen in congested areas in your 
written testimony.
    Mr. May. Correct.
    Mr. Petri. And I wonder if there are any technical problems 
that would have to be overcome in order for the FAA to adopt 
the approach that you advocate.
    Mr. May. Mr. Petri, I am sure there are some technical 
problems. There are some operational problems. There are some 
environmental issues. There are noise issues. But that doesn't 
relieve the absolute requirement to make this a massive 
priority for this Nation as well as the FAA.
    New York City, the Chairman of the Full Committee talked 
about this morning, 45 airports; it is the most complicated 
airspace in the world, there is no question about that. It is 
going to cost them, according to the Partnership for New York, 
about $2.6 billion a year, starting this year, for delays. They 
are the source of, well, over half of the delays that we take 
in the NAS today. We have to be able to sit down with the city 
leaders, the Governors, the controllers, the users of the 
system and the FAA and figure out how do we implement a New 
York airspace redesign. And that ought to be one of the 
absolute critical priorities that we have going forward. I 
don't think there are as many technical issues involved with it 
as there are operational issues. And people are going to have 
to realize, at the end of the day, while noise patterns may 
shift from point A to point B, the overall noise with a good 
system will come down.
    Mr. Petri. Thank you.
    Mr. Costello. The Chair thanks the Ranking Member and now 
recognizes the gentleman from Michigan, Dr. Ehlers.
    Mr. Ehlers. Thank you, Mr. Chairman.
    And I want to follow up on some of Mr. Boswell's comments.
    And this is not a comment just on this hearing, but on many 
hearings we have had. And it always concerns me. We have got a 
major problem here, something we have to work on together, but 
every time we have a hearing like this, we get representatives 
up here, particularly from the unions, who complain, complain, 
complain, complain. The FAA won't let them in. Won't talk to 
them. Won't do this, won't do that. Talk to the FAA, and they 
say, sure, we will be happy to. We have to have a good working 
relationship. I am not anti-union. I have family members who 
have been in unions. I have served on negotiating boards 
before. That is not the point.
    But what do you expect to accomplish every time we have a 
hearing, the unions come in and complain, complain, complain, 
complain? We don't want complaints. I sit on a lot of 
Committees, listen to a lot of Federal employees, and they are 
always talking to me about the problems and what can be done to 
solve it. If you want to be part of the solution, you really 
have to become part of the solution.
    But I listened to the testimony this morning. It was 
entirely a litany against the FAA. That doesn't help. If you 
have problems with them, you work that out around the 
bargaining table. You work with them. Try to work out 
agreements. If you can't, you work with the Chairman and so 
forth. But I am just saying, don't always bring your dirty 
laundry here and expect us to deal with it and solve it. That 
is not what we are interested in. We are interested in 
solutions. We are interested in safety. We are interested in 
efficiency. And as Mr. May said, we like to lead, follow, or 
get out of the way. And we prefer leading.
    So this is--my dad was a minister, so I get into sermons 
every once in a while. But if you are serious about working 
with us and with the FAA, then get down to work and stop the 
litany of complaints. And I will be happy to tell the FAA the 
same thing. If they are not cooperating, I am happy to 
castigate them and say, hey, we have got to work together. This 
is a complex problem. We are interested in public safety. We 
are interested in public transportation. We are interested in 
economy, doing it right, doing it well, and doing it at a 
reasonable price so the traveling public gets where they want 
to go. The public doesn't give two bits about ADS-B or who is 
right in the arguments or what is going to happen. They just 
want to get there, and they want to get there safely. So end of 
sermon.
    Having said that, I do appreciate the input and the 
comments. This is a project that is immense. And someone 
likened it to Eisenhower's program. In many ways, it is.
    But you need to have leadership, and you have to work 
problems out, and you have to lead. That is how we built the 
Interstate Highway System. It works marvelously. There are lots 
of participants. Every State has lots of participants; the 
Federal Government participates.
    Work out all of the problems; that is what we have to do 
here. Stop throwing stones at each other. Whether you are labor 
management, customers, owners, I do not care.
    Now, Mr. Boswell, I am not sure that is what you wanted me 
to start out to say, but I know you are also a churchgoer, and 
I know you believe in sermons, too. Let's get to work and let's 
get the job done, and let's do it right.
    Thank you very much.
    Mr. Costello. The Chair thanks the gentleman.
    I will have some comments.
    I recognize the gentleman from Iowa, Mr. Boswell.
    Mr. Boswell. Well, thank you, Mr. Chairman.
    Everybody needs to know that Vernon Ehlers and I--that I 
think of him as a brother, but sometimes I have to disagree 
with him, and we still are good friends.
    I have spent a lot of hours--well, these people have, too--
and I want those controllers down there and those worker bees 
satisfied and trained and feeling good, and you do, too. So I 
think that they have to express their feelings, their 
frustration, and we need to listen. So I do not quite take it 
that way.
    I appreciate, Mr. Brantley, that you did come and give us 
some plain talk. I think we need to hear it. I think we need to 
hear it a lot.
    Mr. Ehlers. Will the gentleman yield?
    Mr. Boswell. Of course.
    Mr. Ehlers. I do not in any way disagree with that. That is 
not what I am saying, and I want to make sure you are not 
misunderstanding me.
    I want the controllers at the table. I want them at the 
table, working with the FAA and with all of the other parties; 
and they do not have to be at our table here, telling us----
    Mr. Boswell. Well, reclaiming my time, I think that is 
good, but I think that we have to hear them here as well. I 
guess what I am hearing is that they want to be at the table.
    Thinking back to something by Captain Kay and Mr. May, I 
agree that we have got to lead out, but I would like to know, 
from the people who are driving the machinery, you and Mr. 
Bunce, those folks who are actually hands-on, is it going to 
work? We have all seen over the years stuff that really looks 
good on mock-up or model, but that really does not work.
    I would just like to address you, Mr. Captain Kay and Mr. 
Bunce. Do you think that you have got enough interface with the 
process of the equipment and the hardware that will go in 
there? Are you getting enough play in that?
    Mr. Kay. The short answer is, yes, I do believe we have. 
Several pilots and staff members of my association have 
involvement at several levels of the evolution, research, and 
execution of this.
    It is an incredibly complex project, and it is going to 
require us all to have a collaborative involvement. So the 
stakeholder involved is critical, but from what we see, what we 
have studied and the discussions and meetings we have had, I 
truly believe that at the end of the day this is going to be an 
incredibly exciting and performance-enhancing product.
    Mr. Boswell. Well, thank you. I appreciate that.
    Mr. Bunce?
    Mr. Bunce. Sir, I have absolute confidence, from back in my 
previous life, of being able to fly a fighter with data-link 
with an airplane 2,000 feet from me in the weather, at night 
with lights out, and being able to have complete confidence 
that I can look down at a screen and know exactly where that 
aircraft is.
    I know we can do this, and so our separation criteria right 
now are established because we have old technology, and we have 
radars out there that are very old. Because of the ambiguity of 
where an aircraft can be in each one of those sweeps of the 
radars, you have to be able to produce a big bubble around that 
aircraft for its uncertainty.
    With this ADS-B, we positively know where that aircraft is. 
When the pilots know where the other aircraft are in the 
system, when the controllers have tremendous confidence in the 
fidelity of the target that they have on their screens, we will 
be able the do tremendous things.
    The other element of that, though, is the physical 
limitation of the concrete on the ground, but if we can bring 
aircraft in closer together, maybe we can pave that runway 
right down the middle of the two parallels that we have today 
and start staggering approaches in there.
    If we give Mr. Forrey's guys the confidence that they are 
going to have this equipment that really lets them know 
precisely where aircraft are, and then if we let Alpha's pilots 
know exactly where other aircraft are in the system and have 
procedures so that if someone strays for any reason that alerts 
go off very quickly and procedures are established to 
compensate for that, we can do tremendous things.
    Mr. Boswell. So we have got enough involvement. Okay. It 
was important for me to know that.
    Thank you, Mr. Chairman. I yield back.
    Mr. Costello. The Chair thanks the gentleman.
    Just a few brief comments on points that were brought up by 
both Dr. Ehlers and by some of our witnesses:
    One is that I agree with you, Dr. Ehlers, that in a perfect 
world everyone would sit down at the table, would listen and 
would come up with the best product that they possibly could, 
in this case a project that is very complicated.
    The fact is that the current law does not allow for 
fairness in the bargaining process, and that is one of the 
reasons why I feel very strongly that we have to change, as we 
did in H.R. 2881 and in our current bill that, hopefully, we 
will be taking to the floor here very shortly. You have to 
level the playing field.
    If you have, in this case, the FAA, an agency, and in this 
case a bargaining unit, NATCA, that are not on this same level 
playing field and cannot reach an agreement, you have to have 
someone come in and clear up the logjam. That is why we call in 
our legislation for binding arbitration; get an arbitrator to 
come in, to look at both sides of the issue and to decide on 
every issue who is right and who is wrong, what is fair and 
what is not fair, and to resolve the matter.
    So, you know, the FAA does not come in and complain about 
the air traffic controllers or members of the bargaining unit, 
because they do not have to. They are in charge. They walked 
away from the table. They were able to say, "We had an impasse, 
and we cannot resolve this."
    I say that with absolute confidence because I was in the 
room, and I tried to help negotiate bringing both parties 
together. It became very clear what the problem was, and I do 
not lay that squarely on the back of the administrator at the 
time, Ms. Blakey--or the Secretary, for that matter. I blame it 
on the attitude of the White House then toward organized labor 
and toward bargaining units.
    So I would just tell you that we hope, if we pass our 
legislation, that we can resolve these issues by leveling the 
playing field. Once there is a level playing field, you might 
be able to get a reasonable agreement. When there is not, and 
one side has an absolute advantage over the other, it is going 
to take a third party to come in; and that is what the 
legislation would do.
    Two, to your point, Ms. Blakey--and I think Mr. May made 
the point about cap-and-trade. I was in a meeting with the 
Speaker yesterday on this very issue, and I made it very clear 
that the administration needs to know that the leadership here 
in the House and the Senate needs to know that if we are going 
to go to a cap-and-trade system or a carbon tax or wherever it 
may be, we are going to have to retain revenue here in the 
system.
    We cannot let this administration or any administration 
take the revenue from a cap-and-trade system or from a carbon 
tax and use it for other things, for other priorities. We made 
that very clear, and it is something that I think has 
registered, but we have to be vigilant--Chairman Oberstar and 
myself, Mr. Petri and Mr. Mica--in making sure that that 
happens and that it stays in the aviation system.
    To the point of, this needs to be a priority--as you said, 
Mr. May, similar to the Federal Highway System under President 
Eisenhower--we stressed that to the previous administration. We 
are stressing that to this administration. We hope that they 
get it, because I believe, based upon all of the hearings that 
I have been in, all of the discussions, all of the roundtables, 
that we are not going to get this right or get there when we 
need to be there unless you have someone who is in charge, who 
is directing this. It has to come from the White House because 
you have too many agencies and stakeholders involved to have 
people having an equal voice, so to speak, as opposed to 
someone in charge.
    So we delivered that message in the last Administration. 
Regarding this Administration, I not only talked to Secretary 
LaHood about that, but I have had one conversation with the 
President about that, that if you are really serious about 
this, then you need to put somebody in charge and get it done. 
Do whatever it takes to get it done.
    I have to say to both your testimony and, I think, to Ms. 
Blakey's testimony, too, about the stimulus package or the 
recovery, that we pushed very hard, as you well know. Frankly, 
I do not think, as Chairman Oberstar said, that the industry 
made a convincing argument that now is the time in a recovery 
package where the administration wanted to see investments now 
and jobs produced now.
    So I think we need to go back. There is some talk of a 
second stimulus bill. Who knows if it will happen or not, but I 
think we need to go back and take a look at what we can do in 
the short term, if there is another opportunity.
    It is one thing to say we want to be a part and get a part 
of the pie or a piece of the pot, and it is another thing to be 
ready to implement it in a meaningful way in the short term. 
Because we know what the long-term issues are and some of the 
challenges, but that is something that I would ask you to think 
about in the event that we come up with a second stimulus 
package.
    With that, unless Mr. Petri has any comments or closing 
remarks, I would again thank all of the witnesses for being 
here. We said when we opened this hearing that this is the 
first of many hearings. We have had roundtables. We are going 
to continue them.
    Mr. Mica and others have said we have got to get an 
administrator in place. We hope that that happens sooner rather 
than later. It was on the fast track for a while, but 
unfortunately, I think when the names of some of the nominees 
and others were put forward and then withdrawn for various 
reasons, the vetting process is taking far longer than it 
should; and in my opinion, the administration has raised the 
bar higher than they should have for some of these positions.
    We thank you for your testimony. We look forward to 
continuing to hear from you and in working with you on this 
enormous task before all of us. Thank you.
    The Subcommittee stands adjourned.
    [Whereupon, at 1:25 p.m., the Subcommittee was adjourned.]

    [GRAPHIC] [TIFF OMITTED] T9983.001
    
    [GRAPHIC] [TIFF OMITTED] T9983.002
    
    [GRAPHIC] [TIFF OMITTED] T9983.003
    
    [GRAPHIC] [TIFF OMITTED] T9983.004
    
    [GRAPHIC] [TIFF OMITTED] T9983.005
    
    [GRAPHIC] [TIFF OMITTED] T9983.006
    
    [GRAPHIC] [TIFF OMITTED] T9983.007
    
    [GRAPHIC] [TIFF OMITTED] T9983.008
    
    [GRAPHIC] [TIFF OMITTED] T9983.009
    
    [GRAPHIC] [TIFF OMITTED] T9983.010
    
    [GRAPHIC] [TIFF OMITTED] T9983.011
    
    [GRAPHIC] [TIFF OMITTED] T9983.012
    
    [GRAPHIC] [TIFF OMITTED] T9983.013
    
    [GRAPHIC] [TIFF OMITTED] T9983.014
    
    [GRAPHIC] [TIFF OMITTED] T9983.015
    
    [GRAPHIC] [TIFF OMITTED] T9983.016
    
    [GRAPHIC] [TIFF OMITTED] T9983.017
    
    [GRAPHIC] [TIFF OMITTED] T9983.018
    
    [GRAPHIC] [TIFF OMITTED] T9983.019
    
    [GRAPHIC] [TIFF OMITTED] T9983.020
    
    [GRAPHIC] [TIFF OMITTED] T9983.021
    
    [GRAPHIC] [TIFF OMITTED] T9983.022
    
    [GRAPHIC] [TIFF OMITTED] T9983.023
    
    [GRAPHIC] [TIFF OMITTED] T9983.024
    
    [GRAPHIC] [TIFF OMITTED] T9983.025
    
    [GRAPHIC] [TIFF OMITTED] T9983.026
    
    [GRAPHIC] [TIFF OMITTED] T9983.027
    
    [GRAPHIC] [TIFF OMITTED] T9983.028
    
    [GRAPHIC] [TIFF OMITTED] T9983.029
    
    [GRAPHIC] [TIFF OMITTED] T9983.030
    
    [GRAPHIC] [TIFF OMITTED] T9983.031
    
    [GRAPHIC] [TIFF OMITTED] T9983.032
    
    [GRAPHIC] [TIFF OMITTED] T9983.033
    
    [GRAPHIC] [TIFF OMITTED] T9983.034
    
    [GRAPHIC] [TIFF OMITTED] T9983.035
    
    [GRAPHIC] [TIFF OMITTED] T9983.036
    
    [GRAPHIC] [TIFF OMITTED] T9983.037
    
    [GRAPHIC] [TIFF OMITTED] T9983.038
    
    [GRAPHIC] [TIFF OMITTED] T9983.039
    
    [GRAPHIC] [TIFF OMITTED] T9983.040
    
    [GRAPHIC] [TIFF OMITTED] T9983.041
    
    [GRAPHIC] [TIFF OMITTED] T9983.042
    
    [GRAPHIC] [TIFF OMITTED] T9983.043
    
    [GRAPHIC] [TIFF OMITTED] T9983.044
    
    [GRAPHIC] [TIFF OMITTED] T9983.045
    
    [GRAPHIC] [TIFF OMITTED] T9983.046
    
    [GRAPHIC] [TIFF OMITTED] T9983.047
    
    [GRAPHIC] [TIFF OMITTED] T9983.048
    
    [GRAPHIC] [TIFF OMITTED] T9983.049
    
    [GRAPHIC] [TIFF OMITTED] T9983.050
    
    [GRAPHIC] [TIFF OMITTED] T9983.051
    
    [GRAPHIC] [TIFF OMITTED] T9983.052
    
    [GRAPHIC] [TIFF OMITTED] T9983.053
    
    [GRAPHIC] [TIFF OMITTED] T9983.054
    
    [GRAPHIC] [TIFF OMITTED] T9983.055
    
    [GRAPHIC] [TIFF OMITTED] T9983.056
    
    [GRAPHIC] [TIFF OMITTED] T9983.057
    
    [GRAPHIC] [TIFF OMITTED] T9983.058
    
    [GRAPHIC] [TIFF OMITTED] T9983.059
    
    [GRAPHIC] [TIFF OMITTED] T9983.060
    
    [GRAPHIC] [TIFF OMITTED] T9983.061
    
    [GRAPHIC] [TIFF OMITTED] T9983.062
    
    [GRAPHIC] [TIFF OMITTED] T9983.063
    
    [GRAPHIC] [TIFF OMITTED] T9983.064
    
    [GRAPHIC] [TIFF OMITTED] T9983.065
    
    [GRAPHIC] [TIFF OMITTED] T9983.066
    
    [GRAPHIC] [TIFF OMITTED] T9983.067
    
    [GRAPHIC] [TIFF OMITTED] T9983.068
    
    [GRAPHIC] [TIFF OMITTED] T9983.069
    
    [GRAPHIC] [TIFF OMITTED] T9983.070
    
    [GRAPHIC] [TIFF OMITTED] T9983.071
    
    [GRAPHIC] [TIFF OMITTED] T9983.072
    
    [GRAPHIC] [TIFF OMITTED] T9983.073
    
    [GRAPHIC] [TIFF OMITTED] T9983.074
    
    [GRAPHIC] [TIFF OMITTED] T9983.075
    
    [GRAPHIC] [TIFF OMITTED] T9983.076
    
    [GRAPHIC] [TIFF OMITTED] T9983.077
    
    [GRAPHIC] [TIFF OMITTED] T9983.078
    
    [GRAPHIC] [TIFF OMITTED] T9983.079
    
    [GRAPHIC] [TIFF OMITTED] T9983.091
    
    [GRAPHIC] [TIFF OMITTED] T9983.092
    
    [GRAPHIC] [TIFF OMITTED] T9983.093
    
    [GRAPHIC] [TIFF OMITTED] T9983.094
    
    [GRAPHIC] [TIFF OMITTED] T9983.095
    
    [GRAPHIC] [TIFF OMITTED] T9983.096
    
    [GRAPHIC] [TIFF OMITTED] T9983.097
    
    [GRAPHIC] [TIFF OMITTED] T9983.098
    
    [GRAPHIC] [TIFF OMITTED] T9983.099
    
    [GRAPHIC] [TIFF OMITTED] T9983.100
    
    [GRAPHIC] [TIFF OMITTED] T9983.101
    
    [GRAPHIC] [TIFF OMITTED] T9983.102
    
    [GRAPHIC] [TIFF OMITTED] T9983.103
    
    [GRAPHIC] [TIFF OMITTED] T9983.104
    
    [GRAPHIC] [TIFF OMITTED] T9983.105
    
    [GRAPHIC] [TIFF OMITTED] T9983.106
    
    [GRAPHIC] [TIFF OMITTED] T9983.107
    
    [GRAPHIC] [TIFF OMITTED] T9983.108
    
    [GRAPHIC] [TIFF OMITTED] T9983.109
    
    [GRAPHIC] [TIFF OMITTED] T9983.110
    
    [GRAPHIC] [TIFF OMITTED] T9983.111
    
    [GRAPHIC] [TIFF OMITTED] T9983.112
    
    [GRAPHIC] [TIFF OMITTED] T9983.113
    
    [GRAPHIC] [TIFF OMITTED] T9983.114
    
    [GRAPHIC] [TIFF OMITTED] T9983.115
    
    [GRAPHIC] [TIFF OMITTED] T9983.116
    
    [GRAPHIC] [TIFF OMITTED] T9983.080
    
    [GRAPHIC] [TIFF OMITTED] T9983.081
    
    [GRAPHIC] [TIFF OMITTED] T9983.082
    
    [GRAPHIC] [TIFF OMITTED] T9983.083
    
    [GRAPHIC] [TIFF OMITTED] T9983.084
    
    [GRAPHIC] [TIFF OMITTED] T9983.085
    
    [GRAPHIC] [TIFF OMITTED] T9983.086
    
    [GRAPHIC] [TIFF OMITTED] T9983.087
    
    [GRAPHIC] [TIFF OMITTED] T9983.088
    
    [GRAPHIC] [TIFF OMITTED] T9983.089
    
    [GRAPHIC] [TIFF OMITTED] T9983.090
    
    [GRAPHIC] [TIFF OMITTED] T9983.117
    
    [GRAPHIC] [TIFF OMITTED] T9983.118
    
    [GRAPHIC] [TIFF OMITTED] T9983.119
    
    [GRAPHIC] [TIFF OMITTED] T9983.120
    
    [GRAPHIC] [TIFF OMITTED] T9983.121
    
    [GRAPHIC] [TIFF OMITTED] T9983.122
    
    [GRAPHIC] [TIFF OMITTED] T9983.123
    
    [GRAPHIC] [TIFF OMITTED] T9983.124
    
    [GRAPHIC] [TIFF OMITTED] T9983.125
    
    [GRAPHIC] [TIFF OMITTED] T9983.126
    
    [GRAPHIC] [TIFF OMITTED] T9983.127
    
    [GRAPHIC] [TIFF OMITTED] T9983.128
    
    [GRAPHIC] [TIFF OMITTED] T9983.129
    
    [GRAPHIC] [TIFF OMITTED] T9983.130
    
    [GRAPHIC] [TIFF OMITTED] T9983.131
    
    [GRAPHIC] [TIFF OMITTED] T9983.132
    
    [GRAPHIC] [TIFF OMITTED] T9983.133
    
    [GRAPHIC] [TIFF OMITTED] T9983.134
    
    [GRAPHIC] [TIFF OMITTED] T9983.135
    
    [GRAPHIC] [TIFF OMITTED] T9983.136
    
    [GRAPHIC] [TIFF OMITTED] T9983.137
    
    [GRAPHIC] [TIFF OMITTED] T9983.138
    
    [GRAPHIC] [TIFF OMITTED] T9983.139
    
    [GRAPHIC] [TIFF OMITTED] T9983.140
    
    [GRAPHIC] [TIFF OMITTED] T9983.141
    
    [GRAPHIC] [TIFF OMITTED] T9983.142
    
    [GRAPHIC] [TIFF OMITTED] T9983.143
    
    [GRAPHIC] [TIFF OMITTED] T9983.144
    
    [GRAPHIC] [TIFF OMITTED] T9983.145
    
    [GRAPHIC] [TIFF OMITTED] T9983.146
    
    [GRAPHIC] [TIFF OMITTED] T9983.147
    
    [GRAPHIC] [TIFF OMITTED] T9983.148
    
    [GRAPHIC] [TIFF OMITTED] T9983.149
    
    [GRAPHIC] [TIFF OMITTED] T9983.150
    
    [GRAPHIC] [TIFF OMITTED] T9983.151
    
    [GRAPHIC] [TIFF OMITTED] T9983.152
    
    [GRAPHIC] [TIFF OMITTED] T9983.153
    
    [GRAPHIC] [TIFF OMITTED] T9983.154
    
    [GRAPHIC] [TIFF OMITTED] T9983.155
    
    [GRAPHIC] [TIFF OMITTED] T9983.156
    
    [GRAPHIC] [TIFF OMITTED] T9983.157
    
    [GRAPHIC] [TIFF OMITTED] T9983.158
    
    [GRAPHIC] [TIFF OMITTED] T9983.159
    
    [GRAPHIC] [TIFF OMITTED] T9983.160
    
    [GRAPHIC] [TIFF OMITTED] T9983.161
    
    [GRAPHIC] [TIFF OMITTED] T9983.162
    
    [GRAPHIC] [TIFF OMITTED] T9983.163
    
    [GRAPHIC] [TIFF OMITTED] T9983.164
    
    [GRAPHIC] [TIFF OMITTED] T9983.165
    
    [GRAPHIC] [TIFF OMITTED] T9983.166
    
    [GRAPHIC] [TIFF OMITTED] T9983.167
    
    [GRAPHIC] [TIFF OMITTED] T9983.168
    
    [GRAPHIC] [TIFF OMITTED] T9983.169
    
    [GRAPHIC] [TIFF OMITTED] T9983.170
    
    [GRAPHIC] [TIFF OMITTED] T9983.171
    
    [GRAPHIC] [TIFF OMITTED] T9983.172
    
    [GRAPHIC] [TIFF OMITTED] T9983.173
    
    [GRAPHIC] [TIFF OMITTED] T9983.174
    
    [GRAPHIC] [TIFF OMITTED] T9983.175
    
    [GRAPHIC] [TIFF OMITTED] T9983.176
    
    [GRAPHIC] [TIFF OMITTED] T9983.177
    
    [GRAPHIC] [TIFF OMITTED] T9983.178
    
    [GRAPHIC] [TIFF OMITTED] T9983.179
    
    [GRAPHIC] [TIFF OMITTED] T9983.180
    
    [GRAPHIC] [TIFF OMITTED] T9983.181
    
    [GRAPHIC] [TIFF OMITTED] T9983.182
    
    [GRAPHIC] [TIFF OMITTED] T9983.183
    
    [GRAPHIC] [TIFF OMITTED] T9983.184
    
    [GRAPHIC] [TIFF OMITTED] T9983.185
    
    [GRAPHIC] [TIFF OMITTED] T9983.186
    
    [GRAPHIC] [TIFF OMITTED] T9983.187
    
    [GRAPHIC] [TIFF OMITTED] T9983.188
    
    [GRAPHIC] [TIFF OMITTED] T9983.189
    
    [GRAPHIC] [TIFF OMITTED] T9983.190
    
    [GRAPHIC] [TIFF OMITTED] T9983.191
    
    [GRAPHIC] [TIFF OMITTED] T9983.192
    
    [GRAPHIC] [TIFF OMITTED] T9983.193
    
    [GRAPHIC] [TIFF OMITTED] T9983.194
    
    [GRAPHIC] [TIFF OMITTED] T9983.195
    
    [GRAPHIC] [TIFF OMITTED] T9983.196
    
    [GRAPHIC] [TIFF OMITTED] T9983.197
    
    [GRAPHIC] [TIFF OMITTED] T9983.198
    
    [GRAPHIC] [TIFF OMITTED] T9983.199
    
    [GRAPHIC] [TIFF OMITTED] T9983.200
    
    [GRAPHIC] [TIFF OMITTED] T9983.201
    
    [GRAPHIC] [TIFF OMITTED] T9983.202
    
    [GRAPHIC] [TIFF OMITTED] T9983.203
    
    [GRAPHIC] [TIFF OMITTED] T9983.204
    
    [GRAPHIC] [TIFF OMITTED] T9983.205
    
    [GRAPHIC] [TIFF OMITTED] T9983.206
    
    [GRAPHIC] [TIFF OMITTED] T9983.207
    
    [GRAPHIC] [TIFF OMITTED] T9983.208
    
    [GRAPHIC] [TIFF OMITTED] T9983.209
    
    [GRAPHIC] [TIFF OMITTED] T9983.210
    
    [GRAPHIC] [TIFF OMITTED] T9983.211
    
    [GRAPHIC] [TIFF OMITTED] T9983.212
    
    [GRAPHIC] [TIFF OMITTED] T9983.213
    
    [GRAPHIC] [TIFF OMITTED] T9983.214
    
    [GRAPHIC] [TIFF OMITTED] T9983.215
    
    [GRAPHIC] [TIFF OMITTED] T9983.216
    
    [GRAPHIC] [TIFF OMITTED] T9983.217
    
    [GRAPHIC] [TIFF OMITTED] T9983.218
    
    [GRAPHIC] [TIFF OMITTED] T9983.219
    
    [GRAPHIC] [TIFF OMITTED] T9983.220
    
    [GRAPHIC] [TIFF OMITTED] T9983.221
    
    [GRAPHIC] [TIFF OMITTED] T9983.222
    
    [GRAPHIC] [TIFF OMITTED] T9983.223
    
    [GRAPHIC] [TIFF OMITTED] T9983.224
    
    [GRAPHIC] [TIFF OMITTED] T9983.225
    
    [GRAPHIC] [TIFF OMITTED] T9983.226
    
    [GRAPHIC] [TIFF OMITTED] T9983.227
    
    [GRAPHIC] [TIFF OMITTED] T9983.228
    
    [GRAPHIC] [TIFF OMITTED] T9983.229
    
    [GRAPHIC] [TIFF OMITTED] T9983.230
    
    [GRAPHIC] [TIFF OMITTED] T9983.231
    
    [GRAPHIC] [TIFF OMITTED] T9983.232
    
    [GRAPHIC] [TIFF OMITTED] T9983.233
    
    [GRAPHIC] [TIFF OMITTED] T9983.234
    
    [GRAPHIC] [TIFF OMITTED] T9983.235
    
    [GRAPHIC] [TIFF OMITTED] T9983.236
    
    [GRAPHIC] [TIFF OMITTED] T9983.237
    
    [GRAPHIC] [TIFF OMITTED] T9983.238
    
    [GRAPHIC] [TIFF OMITTED] T9983.239
    
    [GRAPHIC] [TIFF OMITTED] T9983.240
    
    [GRAPHIC] [TIFF OMITTED] T9983.241
    
    [GRAPHIC] [TIFF OMITTED] T9983.242
    
    [GRAPHIC] [TIFF OMITTED] T9983.243
    
    [GRAPHIC] [TIFF OMITTED] T9983.244
    
    [GRAPHIC] [TIFF OMITTED] T9983.245
    
    [GRAPHIC] [TIFF OMITTED] T9983.246
    
    [GRAPHIC] [TIFF OMITTED] T9983.247
    
    [GRAPHIC] [TIFF OMITTED] T9983.248
    
    [GRAPHIC] [TIFF OMITTED] T9983.249
    
    [GRAPHIC] [TIFF OMITTED] T9983.250
    
    [GRAPHIC] [TIFF OMITTED] T9983.251
    
    [GRAPHIC] [TIFF OMITTED] T9983.252
    
    [GRAPHIC] [TIFF OMITTED] T9983.253
    
    [GRAPHIC] [TIFF OMITTED] T9983.254
    
    [GRAPHIC] [TIFF OMITTED] T9983.255
    
    [GRAPHIC] [TIFF OMITTED] T9983.256
    
    [GRAPHIC] [TIFF OMITTED] T9983.257
    
    [GRAPHIC] [TIFF OMITTED] T9983.258
    
    [GRAPHIC] [TIFF OMITTED] T9983.259
    
    [GRAPHIC] [TIFF OMITTED] T9983.260
    
    [GRAPHIC] [TIFF OMITTED] T9983.261
    
    [GRAPHIC] [TIFF OMITTED] T9983.262
    
    [GRAPHIC] [TIFF OMITTED] T9983.263
    
                                    

</pre></body></html>
